              PUBLIC
             RELEASE


           NATIONAL OCEANIC AND
     ATMOSPHERIC ADMINISTRATION

     Coastal Zone Management and National
Estuarine Research Reserve System Programs
           Require Management Attention to
                      Increase Effectiveness

          Inspection Report No. IPE-9044 / December 1997




            Office of Inspections and Program Evaluations
U.S. Department of Commerce                                                                                          Report IPE-9044
Office of Inspector General                                                                                           December 1997

                                                 TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

OBSERVATIONS AND CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

          I.        NOAA Coordination to Aid Coastal Management is Deficient . . . . . . . . . . . 8
                    A.  NOAA Needs to Further Focus and Integrate Its Coastal
                        Stewardship Efforts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
                    B.  Federal Interagency Coastal Council Is Needed to Fulfill Mandate . . . . . 12
                    C.  OCRM and the Coastal Services Center Must Work Together . . . . . . . 14

          II.       Administration of CZM Cooperative Agreements Warrants NOAA
                    Management’s Attention . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 18
                    A.    Multi-Year Cooperative Agreements Offer Potential Opportunity to
                         Alleviate Administrative Workload . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         19
                    B.   Continuous Nature of the Coastal Zone Management Program
                         Requires Different Accounting for Program Management Costs . . . . . .                                            21
                    C.   Timeliness of Cooperative Agreement Extension . . . . . . . . . . . . . . . . . .                                 23
                    D.   Coordination Between OCRM and GMD Needs Improvement . . . . . . .                                                 23

          III.      Current Coastal Nonpoint Source Pollution Provisions Are
                    Unworkable . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         26
                    A.    Requirements of the Statute Are Difficult to Implement . . . . . . . . . . . .                                   27
                    B.    Limited Funding Available for Development and
                          Implementation of State Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         29
                    C.    Coastal States Are Having Fundamental Problems
                          Developing Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  32
                    D.    Progress Made to Date Should Be Preserved . . . . . . . . . . . . . . . . . . . .                                33

          IV.       The Effectiveness of the Coastal Zone Management Program Has
                    Not Been Measured . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

          V.        Full Potential of the Estuarine Research Reserve Program Is Not Being
                    Realized . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   40
                    A.      Difficult Choices Must be Made to Keep Research Reserve
                           System Viable . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           41
                    B.     Research Should Be Performed in Accordance with NOAA
                           Policy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      44
                    C.     Reserve System Is Underutilized for Substantive Research . . . . . . . . . .                                    45
U.S. Department of Commerce                                                                             Report IPE-9044
Office of Inspector General                                                                              December 1997

                   D.       Research and Education Performed in the Reserve System
                            Should Be More Strongly Linked to Coastal Management . . . . . . . . . . 47
                   E.       Staffing Shortages at the Reserve Sites Have Limited the
                            Effectiveness of the Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

         VI.       The Coastal and Marine Management Computer Information
                   System Lacks Sufficient Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54

APPENDIX--AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57
U.S. Department of Commerce                                                         Report IPE-9044
Office of Inspector General                                                          December 1997



                                   EXECUTIVE SUMMARY


With the passage of the Coastal Zone Management Act of 1972, the Congress made clear its
desire to preserve, protect, develop, and, where possible, restore and enhance the land and water
resources of the nation's coastal zone for this and future generations. The Act created two
programs to implement the intent of the Act: the Coastal Zone Management (CZM) and the
National Estuarine Research Reserve System (NERRS) programs. Both programs are structured
as federal/state partnerships, where the federal government has the role of assisting the states in
effectively exercising their responsibilities in the coastal zone and adjoining estuaries, and the
states have the role of actually taking action to protect and promote the wise use of land and
water resources in the coastal zone. Further, the federal government is responsible for preserving
the national interest in managing coastal resources and uses because, as the Act recognized, state
boundaries are artificial when it comes to coastal resource management.

Currently, 31 of the 35 coastal states, including those of the Great Lakes and U.S. territories,
have CZM programs that have been approved by NOAA. Three additional state programs are in
various stages of development and, just recently, officials in the one remaining state have
expressed an interest in participating in the program. The addition of each new state or territory
has added strength and depth to the federal CZM program. Therefore, the long-term goal of
linking coastal states and territories, to intelligently manage the development, use, and protection
of the coastal resources, is close to being realized.

Responsibility for the administration of the CZM and NERRS programs is currently placed in the
National Oceanic and Atmospheric Administration (NOAA), specifically in the National Ocean
Service’s Office of Ocean and Coastal Resource Management (OCRM). In reviewing the
effectiveness and efficiency of the two programs, we found that while NOAA was successful in
getting the programs off the ground in the 1970s, the next decade was a difficult one, particularly
for the CZM program. During the 1980’s, several attempts to dismantle the CZM program were
made by the Executive Branch, but support and continued funding from the Congress and the
coastal states kept the program intact.

However, during the 1990's, the CZM program has made a strong comeback with support from
the current administration, Congress and states. Its service to and relationships with the state
CZM managers and staffs have improved dramatically, and collaborative outreach was extended
to other offices both within the National Ocean Service and NOAA, and to other federal agencies
who have responsibilities in the coastal zone. We are pleased to note that interviewees from all
sectors -- state CZM program managers, academic specialists of the coast and ocean, officials at
other federal agencies, and OCRM managers and staff -- confirm significant improvement in the
vitality and management of both the CZM and NERRS programs.

Despite the marked improvement in the management and operation of the CZM and NERRS
programs, we found several issues and concerns that warrant NOAA management’s attention:


                                                  i
U.S. Department of Commerce                                                        Report IPE-9044
Office of Inspector General                                                         December 1997

C      NOAA coordination to aid coastal management is deficient. The challenge of the
       CZM program has always been coordinating the numerous overlapping and cross-cutting
       mandates in the coastal zone where critical actions are taken and decisions are made daily
       that affect coastal land and water resources. These actions and decisions should be made
       using objective science and evaluative techniques of the sort that NOAA can provide.
       Yet, NOAA has not been able to effectively provide this information to the decision
       makers, nor has it effectively coordinated, either internally or with other federal agencies
       involved in coastal matters, to ensure that its coastal stewardship efforts are maximized.
       In addition, OCRM and the newly created Coastal Services Center, intended to be a one-
       stop clearinghouse for information, products, and services for the coastal community, need
       to work more closely together to improve service to the important coastal constituency
       (see page 8).

C      Administration of CZM cooperative agreements warrants attention. We found
       several cooperative agreement administration areas that offer opportunities for
       streamlining, thereby permitting a greater amount of cooperative agreement funds to be
       spent on programmatic rather than administrative duties. Streamlining opportunities
       include: (1) using multi-year cooperative agreements, instead of the current annual
       awards; (2) permitting administrative oversight costs to overlap award periods; and (3)
       improving the processing time on requests for no-cost extensions of time on awards. In
       addition, we found that OCRM and NOAA’s Grants Management Division are often not
       communicating a consistent message on cooperative agreement policies and procedures to
       the CZM awardees causing much confusion and additional effort spent correcting the
       resulting problems (see page 18).

C      Current coastal nonpoint source pollution provisions are unworkable. In 1990, a
       new section was added to the Coastal Zone Management Act to address the impacts of
       nonpoint source pollution on the water quality of the coast. From the outset, this new
       section was fraught with controversy. The legislation was clearly ambitious in both its
       scope and time frame, which has caused much of the controversy. In addition, federal
       funding provided to the states to develop program submissions was limited and no
       additional funding is being provided to help implement the actual programs. Despite the
       controversy, all states required to submit a program for review and approval have done so.
       However, none of the state program submissions will receive final approval because the
       submissions do not fully comply with the statute. This inability of the states to obtain full
       approval indicates that the coastal states are having fundamental problems developing
       coastal nonpoint pollution programs under this new statute. The limited amount of
       resources that the states had to work with, the aggressive time frames for meeting the
       terms of the legislation, and the challenge involved in getting the necessary legislative
       changes passed at the state level, all contributed to the inability of the states to submit
       programs that fully complied with the statute. Despite the problems, some benefits have
       accrued as a result of the coastal states’ review of nonpoint source pollution provisions
       and this progress should be preserved. However, as it currently exists, the requirements of
       the statute are not workable without improvements, such as changing the time frames for
       program implementation (see page 26).


                                                ii
U.S. Department of Commerce                                                       Report IPE-9044
Office of Inspector General                                                        December 1997

C      The effectiveness of the Coastal Zone Management program has not been measured.
       To date, OCRM has only been able to offer anecdotal evidence, collected through its on-
       going monitoring of the state programs and on-site performance reviews, to demonstrate
       the accomplishments of the CZM program. OCRM and the states have been unable to
       measure or evaluate “on-the-ground” outcomes of the CZM program because the data
       necessary to make this assessment has not been collected. We believe that OCRM must
       develop a strategy to measure the effectiveness of the CZM program, in order to
       understand what CZM activities are best helping to achieve the goals of the Coastal Zone
       Management Act and to make effective decisions in the future (see page 36).

C      The full potential of the National Estuarine Research Reserve System program is not
       being realized. While the NERRS is a unique system that serves to promote informed
       management of the Nation’s estuarine and coastal habitats, it faces a number of challenges
       in meeting its full potential. First, as new NERRS sites gain entry to the program, federal
       assistance, which has been level for many years, is becoming less and less adequate to
       support the program’s ambitious goals. Hard choices will have to be made to prioritize
       the use of limited funding in order for the program to remain viable. In addition, NOAA
       has not fully supported the use of NERRS sites for NOAA-funded research. Another
       challenge the program faces is becoming more visible in the scientific community and
       achieving better utilization of the sites. To meet this challenge, the NERRS need to
       develop site profiles which will serve both as a baseline of the sites’ characteristics and
       help researchers choose appropriate sites for their investigations. Also, the usefulness of
       NERRS scientific results could be improved if brief and clear summaries of NERRS
       research were made available more routinely to both CZM managers and the public.
       Finally, improvements in the NERRS cannot be made without key staff in place at the
       right time. The education and research coordinator positions at the NERRS site are often
       vacant for several years after their start up (see page 40).

C      The coastal and marine management computer information system lacks sufficient
       resources. Currently, the ability of OCRM and the Grants Management Division to
       process grant applications and evaluate performance reports from the states is hampered
       by the lack of a computerized information tracking system. The Coastal and Marine
       Management Program is a computer-based information system being developed to
       electronically process grant applications and performance reports. It will also serve as a
       national database of coastal management information, accessible by the Internet, for use by
       state CZM and NERRS program officials. Despite the promise of this project, it has
       suffered setbacks and scope limitations due to insufficient resources (see page 51).

On page 54, we offer a number of recommendations to address our concerns.



In responding to a draft of this report, NOAA’s Acting Chief Financial Officer/Chief
Administrative Officer agreed with all of the report recommendations. NOAA informed us that it
has either taken steps that satisfy the intent of those recommendations or will implement changes
or procedures in the near future. We are generally satisfied that these actions meet the intent of

                                                iii
U.S. Department of Commerce                                                      Report IPE-9044
Office of Inspector General                                                       December 1997

our recommendations. However, for recommendations 3, 16, and 17 we request that NOAA
reconsider its proposed actions to more fully comply with our intent (see pages 17, 50, and 52,
respectively). In addition, we are requesting that NOAA provide us with an action plan detailing
how it will implement its proposed actions for recommendation numbers 1, 2, 11, and 14 (see
pages 12, 14, 38, and 47, respectively). Finally, we are requesting that NOAA take appropriate
action to ensure that the memorandum it will prepare in response to recommendation number 13
is issued within 60 days of the publication of this report. We would like to be provided with a
copy of the memorandum when it is issued, as well as provided with the results of the NOS
Assistant Administrator’s consultation with the other Assistant Administrators regarding the
implementation of the memorandum as soon as possible after this consultation occurs (see page
45). Where necessary, we have made minor changes to the report and recommendations.
NOAA’s complete response is included as an appendix to this report.




                                               iv
U.S. Department of Commerce                                                      Report IPE-9044
Office of Inspector General                                                       December 1997

                                      INTRODUCTION


Pursuant to the Inspector General Act of 1978, as amended, the Department of Commerce Office
of Inspector General evaluated the two programs created by the Coastal Zone Management Act
of 1972, the Coastal Zone Management (CZM) and the National Estuarine Research Reserve
System (NERRS) programs. Our goal was to determine whether the programs are achieving the
goals of the Act and whether they might operate more effectively and efficiently through
additional program improvements.

Program evaluations are special reviews that the OIG undertakes to provide agency managers
with information about operational issues. One of the main goals of an evaluation is to eliminate
waste in government by encouraging effective, efficient, and economical operations. By
highlighting areas for operational improvement, the OIG hopes to help managers avoid problems
in the future and move quickly to address the issues identified during the evaluation. This
evaluation was conducted by the OIG’s inspection staff in accordance with the Quality Standards
for Inspections issued by the President's Council on Integrity and Efficiency. Our field work was
conducted during the period September 1996 through April 1997. During our evaluation and
upon its conclusion, we discussed our observations with both the outgoing and incoming
Assistant Administrator for Ocean Services and Coastal Zone Management, as well as with other
senior program officials.


                                   PURPOSE AND SCOPE

The purpose of this evaluation was to determine whether the CZM and NERRS programs, both
administered by the National Ocean Service’s Office of Ocean and Coastal Resource Management
(OCRM), were achieving their goals, as determined by the Coastal Zone Management Act
(CZMA) of 1972. Our study did not include a review of the National Marine Sanctuaries
program, another program managed by OCRM, because it was created under separate legislation,
the Marine Protection, Research and Sanctuaries Act of 1972.

During our review, we analyzed relevant documents, legislation, data, and prior studies. We also
had wide-ranging discussions with representatives from NOAA, the Environmental Protection
Agency, the Federal Emergency Management Agency, the U.S. Army Corps of Engineers, the
U.S. Coast Guard, the Department of Interior’s Minerals Management Service, the Federal
Energy Regulatory Commission, the Department of Transportation’s Maritime Administration,
various environmental groups, academic experts in the field of coastal management, state CZM
program officials and staff, and state NERRS officials and staff. To gain additional insight into
the workings of the programs at the state level, we visited the CZM program officials in
California, Oregon, Washington, Michigan, Wisconsin, Ohio, Louisiana, Maine, Florida, Virginia,
and Maryland. We also visited the following NERRS sites: Tijuana River and Elkhorn Slough
(California), Sapelo Island (Georgia), Chesapeake Bay (Maryland), and Rookery Bay and
Apalachicola (Florida).



                                                1
   U.S. Department of Commerce                                                              Report IPE-9044
   Office of Inspector General                                                               December 1997

                                              BACKGROUND

   In 1969, the federal government’s Stratton Commission report, Our Nation and the Sea,1 focused
   the attention of citizens, politicians, and scientists on the importance of coastal regions and the
   lack of effective management of coastal resources on the part of many different parties, including
   federal, state, and local governments. The legislative result was both the creation of NOAA in
   1970 and the passage of the CZMA in 1972. This unique law put in place the CZM program that
   attempts to balance competing demands of economic development with environmental protection
   on the coast. The CZM program is a partnership in which the federal government encourages and
   relies on the coastal states and territories to implement voluntary CZM programs. Currently 31 of
   the 35 coastal states, including those of the Great Lakes and U.S. territories, have approved CZM
   programs with three additional state programs in development. There is one remaining state,
   Illinois, that has chosen not to participate in the program. However, officials in that state have
   just recently contacted OCRM about developing a program, so it may be that all 35 coastal states
   will soon be active in the program.

   Another component of the CZMA was the creation of the NERRS program, which has the
   objectives of preserving estuaries as sites for research and education of coastal zone decision
   makers and the public about their importance. NERRS education programs include field trip
   programs, adult lectures, teacher workshops, volunteer programs, and a wide variety of printed
   media. Currently, there are 21 NERR sites in 18 states and territories, encompassing
   approximately 440,000 acres.

   Specifically, it is the intent of Congress for the CZM program to:

   C       Preserve, protect, develop, and, where possible, restore and enhance the land and water
           resources of the Nation's coastal zone for this and future generations. (A shorter way to
           describe this function is “stewardship,” a term used throughout this report),

   C       Encourage and assist the states to effectively exercise their responsibilities in the coastal
           zone and to achieve wise use of land and water resources of the coastal zone, giving full
           consideration to ecological, cultural, historic, and esthetic values as well as the needs for
           compatible economic development,

   C       Encourage the preparation of special area management plans to provide increased
           specificity in protecting significant natural resources, reasonable coastal-dependent
           economic growth, improved protection of life and property in hazardous areas, and
           improved predictability in governmental decision-making, and

   C       Encourage the participation, cooperation, and coordination of the federal, state, local,
           interstate and regional agencies, and governments affecting the coastal zone.



  1
   Our Nation and the Sea, U.S. Commission on Marine Science, Engineering, and Resources, Washington, D.C.,
1969.

                                                        2
U.S. Department of Commerce                                                            Report IPE-9044
Office of Inspector General                                                             December 1997

The U.S. coastal zone, which encompasses 190 seaports, contains some of our nation's most
productive natural resources. As of 1990, the U.S. coasts supported 40 percent of national
employment and 32 percent of gross national product. These figures are generated in part by the
180 million Americans who annually visit ocean and bay beaches, by the commercial fishing
industry that employs hundreds of thousands of people, and by the recreational fishing industry.
Also, as of 1990, 44 percent of the nation’s population lived in the country’s 451 coastal counties
and over the past three decades, U.S. coastal populations have grown by over 40 million, faster
than the country as a whole. The five states that have seen the greatest increases in population --
California, Texas, Florida, Georgia, and Virginia -- are all coastal. It is estimated that by the year
2025, close to 75 percent of all Americans could be living in coastal counties, the majority in
sprawling, interconnected metropolitan centers.

Such population growth and related development, however, has a detrimental impact on the
sensitive and vulnerable coast. This can be seen in the degraded water and habitat quality, real
losses of habitat, declines in fish and shellfish populations, limitations on the harvest of shellfish,
and public beach closures. Not all indicators point to a worsening situation, and certain
contaminants, such as the banned pesticide DDT, have clearly decreased. Nonetheless, recent
findings by NOAA and other authoritative groups indicate generally declining coastal health. For
instance:

C       high levels of toxic contaminants have been found in sediments in major urbanized
        estuaries such as Boston, Baltimore, and San Diego harbors;

C       excess loading of nutrients where rivers meet the sea, largely from fertilizer run-off, has
        resulted in eutrophication--where plant life squeezes out aquatic animal life--and creates
        chronic oxygen deficiency in part or all of 37 of 55 of the major estuaries;

C       over half of the nation’s original salt marshes and mangrove forests were destroyed as of
        1970;

C       in 1990 over a third of the nation’s shellfishing waters had some form of harvest
        restrictions, an increase of six percent since 1984, due largely to poorly planned coastal
        development; and

C       high levels of fecal coloform bacteria from overloaded sewage treatment plants, raw
        sewage discharges, and animal wastes were the primary cause of more than 10,200 beach
        closings since 1988.

The pressures of population growth, urbanization, and economic development have obvious
damaging effects on the land and water resources of the coast. This is matched by a complexity
of laws, competing philosophies of use, and numerous federal, state, and local management
agencies that each attempt to cope with specific coastal issues. These multiple complexities and
the need for developmental and ecological balance call for a comprehensive approach such as the
kind provided for in the CZMA. Justification for such an approach continues today.



                                                   3
U.S. Department of Commerce                                                         Report IPE-9044
Office of Inspector General                                                          December 1997

OCRM Organization and Staffing

As mentioned previously, OCRM is housed within the National Ocean Service (NOS), one of
NOAA’s line offices (see Exhibit 1). To manage the CZM and NERRS programs, as well as the
National Marine Sanctuaries program, OCRM is organized into the following four
offices/divisions.

Director’s Office: Oversees OCRM’s programs and administers budgeting, planning, and multi-
divisional projects. The Director’s Office is also responsible for managing intra-NOAA and
federal interagency activities such as strategic planning. The Director also acts as the national
leader on ocean and coastal management issues, and directs OCRM’s international coastal and
resource management activities.

Policy Coordination Division: Evaluates the states’ coastal management and estuarine reserve
programs, in accordance with the CZMA. The Division also coordinates OCRM’s legislative and
regulatory activities and manages OCRM’s outreach and communications efforts.

Coastal Programs Division: Provides technical support to state, local, and federal agencies on
policy, planning, and regulation. The Coastal Programs Division administers the national CZM
program, including developing, supporting, and approving state CZM programs, as well as acting
as an intermediary between the coastal states. The Division also reviews whether other federal
agencies are complying with the states’ coastal regulations.

Sanctuaries and Reserves Division: Administers the NERRS and the National Marine
Sanctuaries programs, including the national research, education, and monitoring programs. The
Division operates in partnership with the sanctuaries and reserves to develop, support, and
operate these sites. It also plays a primary role in helping to restore the resources of the marine
sanctuaries.

In its entirety, OCRM employs approximately 111 full-time equivalent employees plus nine
NOAA Corps officers. Of this number, 27 are dedicated full-time to the CZM program, 5 are
dedicated full-time to the NERRS program, 56 are dedicated full-time to the National Marine
Sanctuaries program, and 32 employees serve as management and support to more than one of
the programs housed in OCRM.




                                                 4
U.S. Department of Commerce                                                       Report IPE-9044
Office of Inspector General                                                        December 1997


Exhibit 1: NOS Organizational Chart




Funding and Cooperative Agreements

The CZM program is generally funded at approximately $56.0 million annually through three
different Congressional appropriations: one to cover CZM and NERRS program administration
by OCRM, and two separate appropriations for the CZM and NERRS financial assistance
programs. In addition, the NERRS program receives a small amount of NOAA’s overall
construction appropriation in some years. For program administration, OCRM receives funding
for its internal operations from the Coastal Zone Management Fund, a fund comprised of loan
repayments from state and local governments under the Coastal Energy Impact Program.
Annually, Congress designates in its appropriations bill for the Department of Commerce how
much OCRM may spend from the CZM Fund for the administration of the CZM and NERRS
programs. In fiscal year 1996, this amount was $4.0 million, and $4.3 million in fiscal year 1997.
Of the $4.0 million in fiscal year 1996, approximately $422,000 was provided to NOS and NOAA
for overhead, leaving $3.6 million for program administration. In fiscal year 1997, NOS and
NOAA overhead costs were approximately $471,000, resulting in $3.8 million for program
administration.



                                                5
   U.S. Department of Commerce                                                                      Report IPE-9044
   Office of Inspector General                                                                       December 1997

   OCRM issues cooperative agreements2 to the states for both the CZM and NERRS programs.
   Cooperative agreements for the CZM program are issued under two sections of the CZMA:
   sections 306 and 309. Section 306 awards are administrative cooperative agreements that the
   states must match dollar for dollar and use for administering the states’ coastal management
   program. These 306 award funds are distributed using a formula that takes into account the
   length of shoreline and the coastal counties population in each state. Congress has consistently
   set a $2.0 million cap on the annual amount given to any one state for a section 306 award.

   Section 309 financial assistance awards are cooperative agreements for coastal zone enhancement
   that the states are not obligated to match. Awards issued under section 309 are competitively
   awarded for use in creative and effective programs that address the most pressing issues affecting
   coastal resources, such as coastal hazards or degradation of wetlands. For CZM awards, under
   sections 306 and 309, the funding is received through a direct appropriation from the NOAA
   Operations, Research, and Facilities account. In fiscal years 1996 and 1997, the appropriation
   was $47.7 million. In keeping with the intent of the CZMA, OCRM allocates 15 percent of the
   total appropriation to section 309 assistance ($7.2 million). The remainder, $40.5 million, is
   allocated to section 306 cooperative agreements.

   NERRS cooperative agreements are issued under section 315 of the CZMA and are given for the
   acquisition of lands and waters for a reserve, operation and maintenance of a reserve, educational
   or interpretive activities, and research within a reserve. With the exception of cooperative
   agreement funds used to acquire land or waters, NERRS awards are matched by the state at 30
   percent. Funding for NERRS awards is typically received from two sources: the CZM Fund and
   direct appropriations under the NOAA Operations, Research, and Facilities account. In fiscal
   year 1996, $4.3 million was designated for NERRS awards ($3.3 million from the CZM Fund and
   $1 million from the Operations, Research, and Facilities account). In fiscal year 1997, OCRM
   again has $4.3 million to dispense for NERRS awards ($3.0 million from the CZM Fund and $1.3
   million from the Operations, Research, Facilities account). Funding is also periodically made
   available for NERRS construction grants under the NOAA construction appropriation. For fiscal
   year 1997, this amount is $1.0 million.




   2
    NOAA and CZM community members often refer to cooperative agreements, as “grants.” However,
cooperative agreements differ from grants in that substantial involvement is anticipated between the federal agency
and recipient during the performance period. For simplicity, we sometimes use the terms “cooperative
agreements,” “grants,” “financial assistance awards,” or “awards” interchangeably in this report.

                                                            6
U.S. Department of Commerce                                  Report IPE-9044
Office of Inspector General                                   December 1997

Table 1: Summary of CZM Funding/Cooperative Agreements
                                      FY 1996            FY 1997
 Section 306 Awards (CZM)                  $40,770,000    $40,770,000
 Section 309 Awards (CZM)                    6,930,000      6,930,000
 Section 315 Awards (NERRS)                  4,300,000      4,300,000
 NERRS Construction Grants                          0       1,000,000
 Program Management (OCRM)                   4,000,000      4,300,000
                          TOTAL            $56,000,000    $57,300,000




                                       7
   U.S. Department of Commerce                                                                 Report IPE-9044
   Office of Inspector General                                                                  December 1997

                                 OBSERVATIONS AND CONCLUSIONS


   I.      NOAA Coordination to Aid Coastal Management is Deficient


   Coastal management in the United States has historically had a diffuse structure with many issues
   and players. A key challenge of the CZM program has always been coordinating the numerous
   overlapping and cross-cutting mandates in the coastal zone where significant pressure exists from
   population growth and development. Now, however, with growing ecological concerns, the
   CZM program must become increasingly more effective in its efforts to manage coastal land and
   water resources. Furthermore, state coastal managers face a growing need to meet court-imposed
   requirements for more legally defensible regulatory actions. These actions and decisions require
   the objective science and technical expertise that NOAA can provide.

   In recent years, NOAA, and OCRM in particular, have been challenged to provide this objective
   science and technical expertise, while dealing with an organizational structure that has the
   responsibility for coastal matters distributed among several different line and program offices.
   Recognizing this as a problem, the Assistant Administrator for NOS, in the fall of 1993, convened
   an ad hoc committee of managers and scientists from state coastal management and Sea Grant
   programs; federal, state, and local government agencies; academia; and other interest groups.
   The group, named the Integrated Coastal Management Committee, was asked to provide
   constructive insights on strengthening and improving NOAA’s coastal management and
   stewardship initiatives. The committee recommended that NOAA improve the integration of its
   science, research, and management activities, as well as tailor its products and services to better
   meet the needs of its users. However, little action, if any, was taken by NOAA on the
   recommendations made by the committee, although numerous incremental changes were made
   within NOS to make that office focus more on coastal concerns. The organizational structure
   problem was later studied by NOAA’s internal Coastal Stewardship Task Force. The Task Force
   was created in 1994, by the Under Secretary for Oceans and Atmosphere, to review NOAA’s
   various coastal programs to assess their effectiveness in working together and to prepare
   recommendations for improvement. In its July 1996 report, the panel called for organizational
   changes within NOAA to better support coastal and ocean management, as well as for improved
   cooperation and coordination with other federal agencies with coastal responsibilities.

   Just recently, the Under Secretary for Oceans and Atmosphere began to take action on the
   recommendations of the Coastal Stewardship Task Force. In late April 1997, the Under
   Secretary announced as a first of two phases, several personnel changes, including the assignment
   of a new Assistant Administrator of NOS.3 In the second phase, the Under Secretary directed the
   new Assistant Administrator of NOS to implement or respond to the recommendations contained


  3
     The following reappointments took effect on June 2, 1997: the Assistant Administrator of NOS became the
NOAA Deputy Chief Scientist, the Deputy Assistant Administrator of the National Marine Fisheries Service
became the Assistant Administrator of NOS, and the Deputy Assistant Administrator of NOS became the Deputy
Assistant Administrator of the National Marine Fisheries Service.

                                                         8
U.S. Department of Commerce                                                         Report IPE-9044
Office of Inspector General                                                          December 1997

in the Coastal Stewardship Task Force report by creating a new Office of Coastal Ocean Science
within NOS. This new office would serve to consolidate several NOAA coastal science
programs, including the Coastal Ocean Program and Great Lakes Environmental Research
Laboratory, into one office. The Assistant Administrator’s action plan for implementation and
response is due to the Under Secretary by September 22, 1997.

NOAA, to effectively build on the shift to a more coastal-focused NOS, must better coordinate
among its own offices, with other federal agencies, and its state coastal management partners to
effectively promote coastal stewardship. NOAA needs to better use and leverage its own
scientific resources to aid coastal management and to help facilitate the work of OCRM in
carrying out its mission of coastal stewardship. NOAA also needs to take the lead in improving
coordination among federal agencies involved in the coastal zone to better link a complex and
fragmented coastal community. Finally, we note that a significant step has been taken to advance
coastal stewardship with NOAA’s creation of the Coastal Services Center, but coordination
between OCRM and the Center needs to be considerably improved.


A.     NOAA Needs to Further Focus and Integrate Its Coastal Stewardship Efforts

As the repository for a great deal of coastal-related research, as done by the Coastal Ocean
Program, Sea Grant institutions, and the various Environmental Research Laboratories, NOAA
has the unique ability to assist coastal states and territories in developing and implementing their
CZM programs. This technical assistance is critical to the states, since most do not possess the
capability or the funding to perform much, if any, coastal-related research. Despite the large
amount of scientific and technical information produced by NOAA, state coastal managers told us
that little of it is immediately useful in helping them make practical and informed decisions on
policy and resource management issues. In addition, much of the scientific and technical
information possessed by NOAA is simply not being made available to state coastal managers. A
significant way to make NOAA more directly able to affect habitat protection, hazard mitigation,
and coastal water pollution, however, is to put such science-based information in the hands of
state coastal managers and thereby strengthen the states’ technical capability. Making coastal and
ocean science applicable and useful to the coastal management community requires a new way of
doing business, including changes in the way scientists and resource managers interact at NOAA.

NOAA has had some success coordinating its in-house resources to service the coastal
management community, as demonstrated by a few cross-office projects that apply NOAA’s
expertise to help solve coastal management problems. An example of coordination between
NOAA’s line offices is the Coastal Change Analysis Project (C-CAP), a cooperative effort
between OCRM and the National Marine Fisheries Service, funded by the Coastal Ocean
Program. C-CAP is a comprehensive, nationally standardized geographic information system that
uses both satellite imagery and aerial mapping to detect and assess changes in both land use
patterns and specific habitats in coastal wetlands and adjacent regions. Both OCRM and the
National Marine Fisheries Service are using C-CAP to monitor the effectiveness of alternative
management measures in coastal wetland areas and have funded eight projects, each involving
state coastal management programs. Five of the eight projects involve NERRS sites and add the
component of land-based watershed monitoring.

                                                 9
U.S. Department of Commerce                                                         Report IPE-9044
Office of Inspector General                                                          December 1997

Within NOS, a number of projects that combine the staff skills and resources of its various offices
have also been launched. Several NOS offices have collaborated on the San Francisco Bay
Project which gives local public and private coastal stakeholders the ability to use various NOS
charting and geodesy tools and data to improve navigation safety and efficiency, prevent oil spills,
and restore wetlands using dredged materials. The maritime transportation community in the Bay
area will have computerized real-time, accurate water level and current information to improve
planning and control of vessel transits. Data derived from NOS charting and geodesy programs
will provide local management agencies and researchers with a common geo-spatial framework
for the Bay’s ecosystem processes. The navigation and positioning aspects of the San Francisco
Bay Project are being replicated in Cook Inlet and Prince William Sound in Alaska and the Puget
Sound Region in Washington under the Pacific Coast Program. While these projects primarily
involve intra-NOS coordination at this time, a number of state CZM managers regard this as a
model of how partnerships with the states can work for NOAA as a whole.

Despite these efforts to utilize NOAA resources and expertise to benefit coastal management, we
found that overall support for the CZM program in NOAA is limited. The CZM program, as a
federal-state partnership, is often perceived by other NOAA offices as simply a grants
administration program. This may be due in part to the fact that OCRM does not have the same
visibility it once had, ever since an attempt was made to dismantle the CZM program in the early
1980s. OCRM, and its predecessor, the Office of Coastal Zone Management, were distinct line
offices in NOAA until NOS was created in 1983. At that time, OCRM became one of several
offices under the NOS line office structure. Between 1983 and 1994, the national component of
the CZM program was severely truncated and CZM program functions were reduced to basic
administration of cooperative agreements. Staff, technical assistance, and general service to the
states were all cut in size and scope, and workshops, conferences, and other avenues for state
CZM managers and OCRM officials to interact were significantly reduced. Since 1994, however,
OCRM has worked to significantly rebuild its technical expertise, outreach, and policy making
capabilities. With the appointment of the current Director in 1994, OCRM has heightened its
outreach and leadership in coastal affairs and is trying hard to provide the technical assistance
needed by state coastal managers. However, during the course of our review, we noticed that
many state coastal managers and staff, as well as OCRM’s colleagues in other NOAA offices, still
see OCRM as being primarily in the business of administering cooperative agreements rather than
providing technical assistance. Many of the state coastal managers said that they would like
OCRM to provide more technical assistance, especially assistance that draws on the relevant
science and research performed by other NOAA offices.

To date, OCRM has had difficulty delivering to the state coastal managers what they are
demanding -- clear and concise scientific information they can use to make more informed policy
decisions about coastal resources. OCRM’s problems in providing this information can be
attributed to its position as a small resource management office in an organization that has a
dominant and largely traditional scientific orientation. Within NOAA, only the National Marine
Fisheries Service and some offices within NOS, including OCRM, are devoted, primarily, to
resource management. The other line offices and programs have higher proportions of their
budgets devoted to information gathering, research, and science.



                                                10
U.S. Department of Commerce                                                        Report IPE-9044
Office of Inspector General                                                         December 1997

NOAA’s mission, however, stresses both science and resource management. Those committed to
a science focus within NOAA point out that the quality of research or the integrity of the research
process can be undermined when resource management and research functions are combined.
They also tend to believe that in a time of declining resources, organizational walls must be
retained to prevent managers from “raiding” the research budget, or to keep research from being
driven by political considerations. Those committed to resource management, however, believe
that these arguments are made to protect the status quo. They point out that if adequate resource
management structures are not in place in NOAA and in the user community, NOAA will be in
the unhappy position of being able to describe and predict, with increasing accuracy, the
continued decline of coastal and ocean resources.

Despite this conflict, NOAA must build more productive relationships between resource managers
and scientists. The major finding of the National Research Council’s 1995 study, Science, Policy,
and the Coast,4 was that coastal scientists and policymakers do not interact sufficiently to ensure
that decisions and policies related to coastal management are adequately informed by science.
This basic problem was also discussed in both the Integrated Coastal Management Committee and
the Coastal Stewardship Task Force reports. Despite all of these previous reports regarding this
problem, NOAA has responded with limited action. Aside from the creation of the Coastal
Services Center, which we discuss later in this report, and the collaborative projects discussed
previously, NOAA has not yet begun a serious campaign to strengthen the interaction between
scientists and resource managers. In addition, according to OCRM’s Director and OCRM’s
National Research Coordinator, NOAA has not funded a significant amount of research directly in
support of coastal managers. We recognize that NOAA is currently attempting to address these
issues by reorganizing NOS to better focus on coastal issues and we eagerly await the results of
the Assistant Administrator’s efforts in this regard.

NOAA needs a general strategy and plan for creating a more coherent NOAA-wide approach to
coastal stewardship. Scientists are needed in interdisciplinary teams to help formulate problems
and design research agendas with coastal managers, stakeholders, and the public so that research
will be directed to areas of management concern. Coastal managers, similarly, have to learn more
about the language and procedures of science and more aggressively verify how well their policies
are working. OCRM, as the organization with the ongoing relationships with state coastal
managers, should be the office to facilitate the interdisciplinary teams. Yet, it must be NOAA
management that endorses and actively promotes this new way of doing business for it to be
successful. In addition, NOAA needs to both encourage and support OCRM in its move beyond
just grants administration to also providing technical support and strategic advice to the coastal
states.




4
 National Academy Press, Washington DC, 1995.

                                                11
U.S. Department of Commerce                                                        Report IPE-9044
Office of Inspector General                                                         December 1997



In responding to our draft report, NOAA stated that it has created an Office of Coastal Ocean
Science within NOS that will have a science mission supporting coastal mandates of all NOAA
line offices. This office includes a consolidation of certain existing NOS programs, as well as the
cross-cutting Coastal Ocean Program and the National Ocean Partnership Program from NOAA
Headquarters, and the Great Lakes Environmental Research Laboratory from the Office of
Oceanic and Atmospheric Research. In addition the new Assistant Administrator of NOS will
work with NOAA line and program offices to increase NOAA’s coordination and delivery
programs at local and regional levels, produce a “State of the Coast” report, work with the Office
of the Chief Scientist to review how NOAA’s coastal research priorities are set and guide future
efforts, and improve the scientific basis supporting NOAA’s coastal missions. Although these
proposed actions meet the intent of our recommendation, we would appreciate NOAA providing
us with a copy of the action plan created to implement these actions, as well as keeping us
informed of its progress in meeting these ambitious goals.


B.     Federal Interagency Coastal Council Is Needed to Fulfill Mandate

The federal government still manages its ocean and coastal areas and resources primarily on a
sector-by-sector basis involving a diffuse structure of overlapping and uncoordinated laws. To a
large degree, one law, one agency, and one set of regulations govern such areas as offshore oil
and gas, fisheries, navigation, marine protected areas, or endangered species and marine
mammals. Such a system neglects the effects of a particular resource use on other resources or
on the environment. The growing pressure on coastal areas, driven largely by population growth,
tends to increase competition between user groups and between developers and environmentalists.
With many overlapping governmental jurisdictions and legal authorities, it is often difficult to
define coastal management priorities and resolve the multitude of coastal issues and problems.

NOAA shares coastal responsibilities with the U.S. Environmental Protection Agency (EPA), the
U.S. Army Corps of Engineers, the Federal Emergency Management Agency, several agencies
within the Department of Interior, (such as the National Park Service, the U.S. Fish and Wildlife
Service, the Minerals Management Service, and the Bureau of Land Management), as well as the
Department of Defense, the U.S. Coast Guard, and the Department of Transportation’s Maritime
Administration. The CZMA charges NOAA with providing national leadership in encouraging
the participation and cooperation of all federal agencies with programs affecting the coastal zone.
NOAA has passed this responsibility on to OCRM, which is responsible both for the coordination
of coastal activities within the Department of Commerce and among federal agencies. While
OCRM has the mission of coordinating overall coastal zone management, its actual powers are
limited since each of the aforementioned agencies has its own mission with regard to the coast.

In an attempt to involve federal agencies in joint projects and a coastal management dialogue,
OCRM has created and participates in numerous national policy groups on such issues as ports
and dredging, emergency management, coral reef and ecosystem planning, and water quality.




                                                12
   U.S. Department of Commerce                                                                         Report IPE-9044
   Office of Inspector General                                                                          December 1997

   Coastal America, an OCRM-based partnership of 12 federal agencies5, provides a forum for
   interagency collaboration and promotes specific projects to protect, preserve, and restore the
   nation's coastal living resources. OCRM also entered into a Memorandum of Agreement with
   Interior’s Fish and Wildlife Service to coordinate the CZM and NERRS programs with the
   National Wildlife Refuge System. Finally, OCRM runs joint workshops with the Federal
   Emergency Management Agency on mitigation planning efforts to reduce the risk of loss of life
   and property from storms. All of these OCRM coordination activities have created numerous
   synergies, but additional gains in coordination could be made through an issues-oriented federal
   forum to help establish a clear federal coastal agenda, collectively address critical problems, and
   help ensure more planned coordination among federal agencies.

   Currently, the various federal agencies involved in coastal matters often work at cross purposes.
   For instance, the Army Corps of Engineers, in laying the infrastructure for commerce and
   development of ports and shorelines, has often been in conflict with agencies such as EPA,
   NOAA, and the Fish and Wildlife Service, whose missions are to preserve coastal resources.
   While there have been recent improvements in coordination among these agencies, especially at
   the federal level, state managers reported that many Army Corps of Engineers regional office
   commanders were focused on their own missions to the exclusion of other considerations. For
   example, the Army Corps of Engineers engages in extensive dredging of rivers, ports, and harbors
   but usually dumps dredged material at sea rather than using it to restore endangered wetlands. In
   another instance, while disaster relief and federally subsidized flood insurance administered by the
   Federal Emergency Management Agency help individuals recover from catastrophic natural
   events, they may also have the unintended effect of encouraging overbuilding and possibly
   hazardous development on the coast. While the latter point is widely debated, it should be studied
   and its true effect on development clarified. A federal council should help to address these and
   similar critical coastal issues, most of which are multi-jurisdictional.

   Questions of ocean governance could also be taken up by the federal council. An increasingly
   busy ocean is forcing some states to increase regulation in their own territorial waters and to want
   to extend their control and management beyond the 12-mile contiguous zone.6 There is also a
   need for regional entities to be linked to the federal coastal forum. While state agencies can
   influence federal activity through the federal consistency provisions of the CZMA,7 they may be


   5
     Coastal America was established by a memorandum of understanding in 1992. The partnership is comprised
of those federal agencies with statutory responsibilities for coastal resources or whose operational activities affect
the coastal environment. Coastal America generally focuses on regional activities to provide support directly to a
local project or watershed.

   6
     The Convention on the Territorial Sea and Contiguous Zone of 1958 allows a country to claim a Contiguous
Zone of up to 12 miles.

   7
      As part of the creation of a federally approved CZM program, the states were promised that federal agencies
whose activities affect the coastal zone will act consistently to “the maximum extent practicable” with the
enforceable standards set forth in the states’ approved programs. This provision, which we found is being
forcefully and effectively implemented by current OCRM management, has allowed states a good measure of
control over such federal activities as navigational and flood control projects, wetlands permits, highway and
airport development, military activities, and fisheries management.

                                                              13
U.S. Department of Commerce                                                          Report IPE-9044
Office of Inspector General                                                           December 1997

less able to influence broad national policy or large federally-sponsored projects, such as the
construction of airports, highways, or waste-treatment plants, that drive a great deal of activity in
the coastal zone. Regional teams, made up of both state and federal officials, however, would be
able to bring their concerns to the national level through the federal coastal forum.

A federal council, linked to regional teams, would provide a means for discussing current and
emerging national policy, specific multi-agency jurisdictional issues, and other issues of common
interest. In addition, each agency could gain a broader awareness of how their actions on coastal
issues impact the activities of other federal agencies, as well as the coastal areas themselves. In
times of declining budgets, possible redundancies between agencies could be reduced and
resources leveraged. If successful, the council could help extend OCRM’s, and therefore
NOAA’s, national leadership and authority on coastal issues, enabling them to better meet their
responsibilities for overall coastal management. We recognize that such a federal council was also
proposed in the Coastal Stewardship Task Force report, and that NOAA is currently reviewing
how it will implement this recommendation. Such an ambitious project should not be undertaken
if it will not be given the resources to make it both effective and efficient. Therefore, we
encourage NOAA to ensure that sufficient resources, both in staffing and funding, are provided to
the federal coastal council. We look forward to evaluating NOAA’s proposed strategy to fully
support and fund this new interagency forum.



In its response to our draft report, NOAA stated that it will “develop a proposal to establish a
Federal interagency coastal council, led by NOAA, as a forum for discussing and coordinating
coastal policy issues that have multiple agency jurisdiction.” Legislation to create such a council
has been introduced in both houses of Congress. While this action meets the intent of our
recommendation, we encourage NOAA to explore other alternatives for creating a Federal
interagency coastal council should the currently proposed legislation not become law. We would
also like to be provided with a copy of the action plan formulated to implement this
recommendation.


C.     OCRM and the Coastal Services Center Must Work Together

The Coastal Services Center, established in Charleston, South Carolina in 1994, is intended to be
a one-stop clearinghouse for information, products, and services for the coastal and ocean
management communities, as well as for the private sector. It was established, in large part, in
response to the criticism of coastal managers that a high proportion of NOAA products were too
technical or abstract to be of use in decision-making and were not readily convertible to applied
use. As part of the “Reinventing Government” movement, all projects undertaken by the Center
are to be client-driven and geared to local, state, and regional issues. Twenty-six staff positions,
many drawn from NOAA line offices, give the Center the ability to enter into partnerships with a
wide range of governmental organizations at all levels, to address specific coastal issues and
problems. The Coastal Services Center was funded at $10.0 million in fiscal year 1996 and $12.0
million in fiscal year 1997. During the course of our review, we found that the Center has a
somewhat overlapping mission with that of OCRM, so it is important that the two organizations

                                                 14
U.S. Department of Commerce                                                       Report IPE-9044
Office of Inspector General                                                        December 1997

coordinate their services. However, while the process of coordination between OCRM and the
Coastal Services Center has begun, much more needs to be done to get these two entities working
well together.

The Center, while formally located within NOS, answers to a Management Committee comprised
of the Assistant Administrators of all NOAA line offices and the Director of the Coastal Ocean
Program. State CZM program and National Marine Fisheries Service managers participate on
other teams that advise the Center on a multitude of issues. The Center provides a venue for the
linkage of NOAA’s three research and data gathering line offices -- the Office of Oceanic and
Atmospheric Research, the National Environmental, Satellite, Data and Information Service, and
the National Weather Service, with its two resource management line offices -- NOS and the
National Marine Fisheries Service. A major aspect of the Center’s work is to make the highly
technical NOAA products produced by the research and data gathering line offices more
understandable and usable by coastal managers, so that they can make more informed decisions
about coastal resources. The Center hopes to overcome what is, for coastal clients, a confusing
tangle of research and fragmented services within NOAA by offering relevant products and
services for coastal clients from all of NOAA’s line offices in one central location.

Not only does the Center translate NOAA’s scientific information, it also assesses management
needs and provides programmatic guidance; develops and distributes a wide range of management
techniques and strategies for local, state, and federal coastal managers; and provides training on
various aspects of coastal management. It is this last function that most overlaps with the work
that OCRM performs. OCRM is also responsible for producing and disseminating coastal
management information, research, and technical assistance, as well as making the results of
management-oriented research available to coastal states in the form of technical assistance,
publications, and workshops. Despite the overlap in missions, we found that the Center and
OCRM tend to deliver the technical assistance in different ways. In providing assistance to its
clients, the Center concentrates more on the scientific aspects of coastal management and
providing research in a format useful to coastal managers. OCRM, on the other hand, focuses on
providing technical assistance on regulatory and policy-making functions through an established
federal-state partnership. However, OCRM has not had adequate funding or staff time, given
other multiple responsibilities, to keep up with the growing needs of the states for scientific
information and other technical assistance. The Coastal Services Center needs to work in concert
with OCRM to fill this information dissemination void.

To ensure that there is no duplication of effort, significant coordination between OCRM and the
Center is required to define specific roles. We found that there is a commitment on the part of
NOS management to see that OCRM, the Coastal Services Center, and the Office of Ocean
Resources Conservation and Assessments integrate their services. OCRM and the Center have
discussed how best to coordinate their programs and the Office of Ocean Resources Conservation
and Assessments has coordinated with the Center regarding technical work on monitoring data,
national trends, and assessment research. In another important link, the Coastal Zone Information
Center collection, which represents a library of all work generated by the CZM program since
1972, is being transferred from OCRM to the Center, where it will be cataloged and archived by a
professional librarian, for the first time.


                                               15
U.S. Department of Commerce                                                       Report IPE-9044
Office of Inspector General                                                        December 1997

However, in part because of the differences between the Center and OCRM, we found that
considerable tension exists between the two entities. Also contributing to the tension is the fact
that OCRM is resource-poor and over-extended while the Coastal Services Center has a
comparatively large budget and staff, which is allowing it to move into new areas. Consequently,
OCRM feels that the Center is more interested in developing new relationships to serve its varied
clientele than coordinating with existing NOAA programs, such as CZM. The Center, however,
feels that OCRM makes unduly burdensome requests. The Center’s Director of Coastal
Management Services, for example, reports that he has to coordinate with six managers and staff
within OCRM alone. NOS management acknowledges that friction exists, but believes that it will
diminish naturally over time. Nevertheless, we found that the current tension between the Center
and OCRM is inhibiting adequate coordination. For example:

C      The Center has undertaken numerous initiatives without sufficient coordination with
       OCRM. For instance, the Center’s ad hoc review team, made up mostly of state coastal
       managers, met for a strategic planning session without informing OCRM. However, the
       OCRM liaison was in Charleston at the time and could have been invited to meet with the
       review team. We find this lack of appropriate consultation worrisome, especially since
       OCRM has an established and ongoing relationship with state coastal managers and, as
       such, would have a legitimate interest in anything that might impact this constituency.

C      Coastal nonpoint source pollution, to be discussed later in this report, was dropped from
       the Center’s priorities. Numerous state CZM managers were angered that the Center
       would not provide resources for this initiative, even though controlling coastal nonpoint
       source pollution was a top priority of 20 out of 34 coastal managers according to a 1995
       survey by NOAA’s Coastal Committee. We are concerned that the Center’s lack of
       funding and support for coastal nonpoint source pollution diminishes current efforts to
       support this important NOAA and EPA-led campaign.

C      The Center’s offerings include a wealth of on-line policy and technical information, but
       potential users of this information are not routinely told whether the policies are employed
       as part of a formally-approved state CZM plan. Because of the Center’s scientific focus, it
       is not well versed in which policies are part of a state CZM plan, meaning they have been
       deemed valid and effective by OCRM. OCRM is concerned that without better
       coordination and on-line explanation, the Center might disseminate incorrect or
       inconsistent policy information or propose techniques actively discouraged by OCRM.
       However, to the best of our knowledge, this problem has not actually occurred yet.

Differences in philosophy make resolving tensions between the Center and OCRM difficult. The
Center emphasizes its obligation to serve its clients and be responsive to their needs. OCRM
believes, and we agree, that the Center should serve these clients, but in the context of existing
NOAA programs, particularly the CZM program and those programs housed in the National
Marine Fisheries Service. Such as is the case with the CZM program, many NOAA programs
already have established relationships with the clients the Center is trying to serve and any
projects undertaken by the Center should be fully coordinated with the NOAA staff on those
programs to ensure that there is no duplication of effort and, more importantly, to demonstrate to
clients that NOAA is able to coordinate internally and speak with one voice on important issues.

                                                16
U.S. Department of Commerce                                                       Report IPE-9044
Office of Inspector General                                                        December 1997

We recognize that both the Center and OCRM share similarities, such as progressive leaders and
highly competent staffs. The current tensions, however, are interfering with the ability of both
offices to improve the level of NOAA’s service to the coastal constituency. Areas of
responsibility need to be clearly defined to ensure optimum cooperation, coordination, and
communication between the two offices. In addition, it would further help agency integration if
the Director of OCRM were to serve on the Management Committee of the Coastal Services
Center. It is critical that the Center and OCRM present a unified image to all clients, as any
apparent lack of coordination would perpetuate whatever negative images may exist among state
CZM managers about the continued lack of integration in NOAA.



While NOAA stated in its response to our draft report that it agreed with our recommendations
dealing with the Coastal Services Center, its proposed actions do not completely meet the intent
of our recommendations. NOAA said that “the NOS Assistant Administrator will officially
designate the Director of OCRM as her alternate on the Coastal Services Center Management
Committee.” This does not make the Director of OCRM an equal player on the Management
Committee, which is what we feel is necessary to resolve the problems discussed in the above
section. While we recognize NOAA’s desire to maintain “proper balance between line offices,”
we believe that NOS, because of its new and expanded focus on coastal issues, can safely be
allotted more positions on the Management Committee than other line offices. Therefore, we
request that NOAA reconsider its proposed action and appoint the Director of OCRM to the
Coastal Services Center Management Committee as a full member, not an alternate.

With regard to our recommendation that the partnership between OCRM and the Coastal
Services Center be reviewed to clarify areas of responsibility, NOAA’s planned actions fully meet
the intent of our recommendation.




                                               17
U.S. Department of Commerce                                                      Report IPE-9044
Office of Inspector General                                                       December 1997

II.    Administration of CZM Cooperative Agreements Warrants NOAA Management’s
       Attention


NOAA issues CZM financial assistance awards, in the form of cooperative agreements, to the
coastal states based on an annual appropriation from Congress, which in recent years has been
approximately $47.7 million. OCRM and NOAA’s Grants Management Division (GMD) work
together to issue the CZM cooperative agreements, which provide funding for program
implementation, program enhancement, and when funds are appropriated, coastal nonpoint source
pollution. OCRM generally handles the programmatic requirements, while GMD is responsible
for ensuring that the cooperative agreements are issued in accordance with all applicable agency,
departmental, and federal rules and regulations. The CZM cooperative agreement typically
includes funding for program management and a separate amount for individual projects. The
percentage of funding provided for program management versus projects varies considerably by
state, depending on how they choose to manage their individual program. Program management
includes the administrative cost of managing the program at the state level, including salaries,
fringe benefits, travel, and office supplies for the state program manager and staff. Typical
program management activities include the oversight of projects performed by outside contractors
and routine functions of the program such as hazard mitigation. The individual projects, also
called tasks, involve the performance of the actual “on-the-ground” activities related to the CZM
program such as outreach programs, marina development, small construction, and education.

To apply for a CZM cooperative agreement, a coastal state submits its application package to
OCRM approximately four months before the financial assistance is to be awarded. CZM
cooperative agreement applications vary from applicant to applicant for many reasons, including
differences in the level of funding requested for program management versus projects, budget
details at the project level, and the number and type of projects. There may be as many as 40
projects funded under any one CZM award. OCRM reviews the completed application from a
programmatic standpoint, concentrating on whether the projects within the cooperative agreement
application are reasonable and relevant to the applicant’s program. After OCRM’s review and
approval, the cooperative agreement application is then sent to GMD. GMD’s review process
includes reviewing the standard forms, budget details, and ensuring that costs are reasonable,
allowable, and allocable. Subsequent to GMD’s review and approval, cooperative agreement
applications must also be cleared by the Department of Commerce’s Office of Inspector General
and the Department’s Office of General Counsel. For any assistance over $100,000, which would
include most CZM and NERRS awards, the Financial Assistance Review Board must also give its
approval. After these clearances and approvals are received, GMD has the final approval
authority to make the financial assistance award.

Processing the annual award applications is only one of many cooperative agreement
administration activities involved in the CZM program. Other activities include processing
requests for no-cost extensions of time on projects, processing requests to move funds around
within an already awarded cooperative agreement, monitoring financial and performance reports,
and closing out the award. In the past, GMD and OCRM have been criticized by the awardees
for many delays in processing cooperative agreements and have been under intense pressure to
improve the timeliness of the cooperative agreement administration process. Within the last year,

                                               18
U.S. Department of Commerce                                                       Report IPE-9044
Office of Inspector General                                                        December 1997

OCRM and GMD have worked to streamline the cooperative agreement administration process
by eliminating the requirement for a new budget for no-cost extensions, establishing a threshold of
$100,000 for competitively-selected awards to require review by the Office of General Counsel,
and removing the requirement for two pieces of documentation for travel expenses. OCRM and
GMD are also currently involved in several efforts to facilitate better communication and to
improve the cooperative agreement administration process, such as conducting joint quarterly
meetings to discuss CZM cooperative agreement administration issues and a project to simplify
the application process by minimizing the required documentation for section 306A awards.

Several of the awardees interviewed said they have definitely observed improvements in the
cooperative agreement administration process. However, we found that there are several
cooperative agreement administration issues and opportunities for improvement that should be
addressed to further improve the process. First, multi-year cooperative agreements for the CZM
program may be beneficial to OCRM, GMD, and the awardees by reducing the amount of time
spent on paperwork required for cooperative agreement submissions. Second, during our
discussions with some of the awardees, we noted that several of them were having difficulty
complying with the current accounting requirements for tracking and allocating oversight costs
when a project has been extended into subsequent award periods. Third, requests for no-cost
extensions of time on a cooperative agreement are not being processed in a timely manner, thus
causing delays in initiating and completing projects. Lastly, OCRM and GMD are often not
communicating a consistent message on grant policies and procedures to the CZM awardees,
thereby causing much confusion and additional effort to correct the resulting problems.


A.     Multi-Year Cooperative Agreements Offer Potential Opportunity to Alleviate
       Administrative Workload

A multi-year cooperative agreement award may be beneficial to OCRM, GMD, and the coastal
states because it offers the opportunity to cut down on the frequency of performing administrative
tasks involved with the submission and review of the annual CZM cooperative agreement
application. If time can be saved in this process, awardees, as well as OCRM staff, can spend
more time on substantive programmatic CZM activities. In addition, the continuous nature of the
CZM program, where a cooperative agreement is routinely issued year after year for an ongoing
program, lends itself to the use of multi-year awards.

In recognition of the need to cut down on paperwork in the CZM cooperative agreement
administration process, OCRM and GMD recently implemented a new award period, beginning in
fiscal year 1996, which will allow awardees to expend funds over 18 months, rather than the
previous 12-month period. The main purpose behind the 18-month extension was to eliminate the
paperwork involved in processing no-cost extensions for projects that have a tendency to run
longer than 12 months. Despite this improvement, it is important to note that the awardees will
continue to receive an annual award, which will include just 12 months of funding for program
administration even though they may take up to the full 18 months to expend funds provided for
projects. While the move to an 18-month award period is a good initial effort, we found that
there may be potential for further streamlining by using multi-year cooperative agreements, rather
than an annual award.

                                                19
U.S. Department of Commerce                                                         Report IPE-9044
Office of Inspector General                                                          December 1997

OCRM had previously considered a multi-year award as an option, hoping to reduce
administrative time spent on processing cooperative agreement packages each year by OCRM,
GMD, and the awardees. OCRM believed, however, that Department of Commerce guidelines
restricted the use of multi-year awards for a program like CZM, so it did not pursue such an
option. However, during the course of our review, we determined that there are no Departmental
restrictions on issuing two or three year cooperative agreements for the CZM program, as long as
OCRM and GMD obtain specific authority based upon bona fide need to issue multi-year awards
from the Department’s Office of Executive Assistance Management. Many of the state CZM
officials we interviewed also favored multi-year awards for the CZM program primarily because it
would permit them to focus on programmatic issues during the time it usually takes them to
prepare a cooperative agreement submission. Most of these awardees expressed a preference for
a two-year award period, because they feel most comfortable planning over this time horizon and
can save as much as two to three months time by not having to prepare an application for the
second year. Other significant benefits of a two-year award period identified by awardees include
the reduction in the number of no-cost extensions prepared for projects that take longer than a
year or 18 months to complete, being able to execute larger projects over a longer period, and the
ability to parallel a two-year award period to the state biennial budget cycle.

Yet, several additional issues must be resolved before multi-year cooperative agreements can be
used for the CZM program. One significant problem exists because the CZM program receives a
different annual appropriation and the amount of funding provided under each CZMA section
varies each year. This makes it very difficult to plan beyond the current year. For example, there
was no section 308 funding, covering regional projects and demonstration projects, in fiscal years
1992, 1993, 1996, and 1997, however funding was available for section 308 in fiscal years 1994
and 1995. Funding for Projects of Special Merit, the portion of the section 309 annual
appropriation that is competitively bid each year, has been sporadic as well. For example, in fiscal
years 1992 through 1995, funding was available for Projects of Special Merit, but in fiscal years
1996 and 1997 there was no funding for these projects. Another problem, identified by some
awardees, is unpredictable political pressures in the state that may cause a change in priorities
during the multi-year period. Several awardees also mentioned the uncertainty they face due to
the state match for the second year of a two-year award period, because these awardees receive
an annual state appropriation. For these reasons, some awardees would like flexibility in the
scope of the projects and the state match for the second year of a two-year cooperative
agreement, if multi-year awards were to be implemented.

Despite the difficulties cited above, we believe the potential benefits of multi-year awards warrant
having OCRM and GMD further explore their feasibility. We suggest that OCRM and GMD test
the multi-year cooperative agreement process in a pilot project with a limited number of CZM
awardees. Such a pilot project would be an important step in determining whether full
implementation of multi-year awards for the CZM program is justified.




                                                 20
   U.S. Department of Commerce                                                               Report IPE-9044
   Office of Inspector General                                                                December 1997



   In responding to our draft report, NOAA stated that it would work towards developing a pilot
   program for making multi-year awards to state CZM programs. This action meets the intent of
   our recommendation. We believe multi-year grants, if implemented properly, will be of great
   benefit to both NOAA and the recipients. Therefore, we encourage OCRM to aggressively work
   through the potential stumbling blocks to make the pilot program a reality and to look to other
   programs, such as NERRS and Sea Grant, as models and for “lessons learned.”


   B.      Continuous Nature of the Coastal Zone Management Program Requires Different
           Accounting for Program Management Costs

   A majority of the CZM grantees we interviewed are not properly accounting for the program
   management costs to oversee a project that has been given a no-cost extension into a subsequent
   award period, primarily because they believe the required accounting effort is burdensome. As
   described earlier, CZM cooperative agreements typically include funding for both program
   management and individual projects, such as small construction or development projects in coastal
   areas. Program management involves a variety of functions including the oversight of such
   projects, the majority of which are performed through outside contracts and awards made by the
   awardee to other entities. Program management also involves the responsibility for routine
   functions, such as education, outreach, and hazard mitigation. Program management costs are
   continuous in nature because the awardee is responsible for running the program year after year.
   The projects, however, are periodic in nature with finite beginning and ending dates. Currently, if
   a project goes beyond the 18-month award period, a no-cost extension may be granted by GMD.
   In contrast, each cooperative agreement only provides 12 months worth of program management
   funding. Therefore, all program management funds have usually been expended by the end of the
   12-month award period. Many state program officials routinely use the subsequent year’s award
   to cover any necessary program management or oversight expenses required on the projects
   carried over from a previous award, which violates applicable cost principles contained in OMB
   circulars.

   This problem was first identified through an audit of the South Carolina Coastal Council (the
   Council) performed by our office in 1996.8 The audit questioned the accounting for oversight
   costs in the Charleston Harbor Project, a five-year project with separate cooperative agreements
   for each of the five years. During the five-year period, GMD approved several no-cost extensions
   for tasks in the Charleston Harbor Project award. However, for several years, the Council was
   found to have improperly assigned costs from subsequent awards to cover the oversight of tasks
   extended from previous cooperative agreements. The auditors stated that the correct way would
   have been to allocate (at the end the first year) some of the oversight costs from the award on
   which the task was originally approved to cover any oversight necessary on the task in any
   subsequent years.


  8
    “South Carolina Coastal Council Causes Project To Cost An Additional $250,000", May 1996, Audit Report
No. ATL-7863-6-0001.

                                                        21
U.S. Department of Commerce                                                        Report IPE-9044
Office of Inspector General                                                         December 1997

The audit finding highlighted a major problem for CZM awardees, many of whom have since told
us that they, too, were not technically in compliance with the accounting requirements for
oversight costs. By the end of a 12-month award period, the awardees have generally expended
the funds allocated for program management, making it difficult to set aside some funds for the
purpose of administering a project that is extended into a subsequent year. State CZM officials
were concerned that to comply with the cost accounting requirements would place a heavy
administrative burden on them in terms of record keeping and financial management.

As discussed earlier in this report, CZM awardees are also faced with these same administrative
difficulties as a result of the recent implementation of a new 18-month award. The cooperative
agreements will continue to be awarded every 12 months and, as a result, the awardees will
continue to expend program management and oversight funds over a 12 month period, so there
will be no cooperative agreement funds left to oversee any projects that take the full 18 months.
For the same reasons as discussed above, the awardees are again faced with the difficult task of
trying to properly account for program management costs.

OCRM, in an effort to reach a compromise on this issue, attempted to provide guidance to the
awardees to assist them in correctly accounting for the oversight costs during the no-cost
extension period of a project. OCRM was basically advising the awardees to set aside funds at
the beginning of the award period, to cover the cost of oversight of projects that may be extended
into the next year. This is not an optimal solution for several reasons. First, the estimate is not
always accurate, and by the end of the award period, the recipient may either not have enough or
have too much money set aside for oversight. The recipients risk deobligation of any money set
aside that is not actually spent for oversight. To prevent deobligation of excess funds, the
awardees would then need to go through the additional effort of applying for a reassignment of
funds to another task within three months of the end of the award year.

OCRM, GMD, and our office recently met to discuss this issue. As a result of this meeting,
OCRM and GMD drafted a proposed solution that OIG auditors found acceptable under current
audit and cost accounting standards. Generally, the proposed solution will allow for some
flexibility to be written into the standard terms and conditions of CZM cooperative agreements to
recognize that funds for program management from the current cooperative agreement may be
used to oversee projects being completed with funds from previous awards, as well as projects in
the current cooperative agreement. The precise wording to be placed in the cooperative
agreements can be found on Page 50 of this report, under recommendation No. 6. OCRM and
GMD still need to address whether it is possible to “grandfather” in current outstanding
cooperative agreements where this is also a problem. This solution, while ensuring compliance
with applicable OMB circulars and guidelines, will ease the requirement to account for program
oversight costs by award year, thus allowing the states to spend more time concentrating on
programmatic issues.



NOAA agreed with this recommendation in its response to our draft report, and has already taken
action to fully implement the recommendation. We commend NOAA for moving quickly to
resolve this issue and we are satisfied that the intent of the recommendation has been satisfied.

                                                22
U.S. Department of Commerce                                                       Report IPE-9044
Office of Inspector General                                                        December 1997

C.     Timeliness of Cooperative Agreement Extension Process Needs Improvement

Requests for no-cost extensions of time on awards are currently not being tracked by GMD,
which has led to substantial delays in their approval. Just about all of the recipients we
interviewed identified the processing of no-cost extensions as a significant problem for them.
They noted extensive delays of as long as five months for GMD’s approval. This, in turn, creates
delays for the awardees. For example, one recipient was unable to pay its contractor on time,
because of GMD’s delay in approving its no-cost extension. As of April 1997, GMD did not have
an automated process to monitor the status of no-cost extensions and, as a result, it does not have
the ability to focus its attention on the older requests first. GMD recognizes this problem and is
currently in the process of creating an internal office computer tracking system to monitor the
status of no-cost extension applications. This tracking system should enable GMD to prioritize
the processing of no-cost extension applications, thus improving its approval time.



In responding to our draft report, NOAA agreed with this recommendation. It stated that OCRM
and GMD would create an electronic tracking system for no-cost extensions and other grant
amendment requests by the end of the first quarter, fiscal year 1998. In addition, OCRM and
GMD will “monitor the effectiveness of the tracking system and develop statistics on processing
time to determine success.” If completed, these actions will meet the intent of our
recommendation.


D.     Coordination Between OCRM and GMD Needs Improvement

OCRM and GMD have been working on improving the cooperative agreements management
process, as well as coordination and communication between their two offices. However, we
found that additional coordination is required in several areas. In their favor, OCRM and GMD
can be credited with working together on several streamlining efforts that have been implemented
to date, including eliminating the requirement for a new budget for no-cost extensions,
establishing a threshold of $100,000 for competitively selected awards to require review by the
Office of General Counsel, and removing the requirement for two pieces of information for travel
expenses. OCRM and GMD are also currently involved in several additional efforts to facilitate
better communication and to improve their administration of the cooperative agreements. First,
GMD and OCRM recently initiated joint quarterly meetings to discuss CZM cooperative
agreement administration issues and improve communication. Second, OCRM and GMD formed
a committee comprised of individuals from the Department’s Office of General Counsel (OGC),
GMD, NOS’s Office of General Counsel, and OCRM to streamline the award application and
review process, especially for those applications with Special Award Conditions. Lastly, OCRM
and OGC will be working together during the fiscal year 1997 grant year, to reduce the required
documentation for section 306A cooperative agreements, thereby simplifying the application
process. OCRM expects this project to be completed by the end of the fiscal year 1997.




                                                23
U.S. Department of Commerce                                                      Report IPE-9044
Office of Inspector General                                                       December 1997

Despite OCRM and GMD’s ongoing efforts to improve the grant administration process,
coordination between OCRM and GMD on cooperative agreement administration issues is not
always optimal. For example, GMD is not always provided with copies of correspondence
between the award recipient and OCRM with regard to the administration of cooperative
agreements and other guidance, such as program regulations that OCRM sends to recipients.
This has led to some misunderstandings by the awardees, resulting in additional time-consuming
efforts by GMD to clarify issues with the awardees and with OCRM. For example, when the
Florida CZM program requested a change in start date from October 1 to July 1 for its fiscal year
1997 award, OCRM and GMD provided inconsistent advice on how to go about making the
change. This caused much confusion at the state level, ultimately leading to a delay in the award
process and additional efforts by GMD and OCRM to resolve the inconsistencies.

A coordination problem also exists between OCRM and GMD with regard to the transition from
a 12-month to an 18-month award period. While this transition was implemented for fiscal year
1996, OCRM issued only a few paragraphs of guidance on the subject in a memo to award
recipients in February 1996. As of March 1997, both GMD and OCRM had differing views on
the procedures the recipients need to follow, and had not yet resolved all of these differences.
However, OCRM and GMD recently made the effort to resolve one problematic issue, that being
whether no-cost extensions were required during the 18-month award period. During the CZM
program managers’ meeting in April 1997, OCRM and GMD issued joint verbal guidance to the
attendees that no such extensions would be needed and later followed up, in July 1997, with
written guidance to all award recipients. While the no-cost extension issue has been resolved,
there are other procedural differences between OCRM and GMD on the conversion to an 18-
month award period that need to be corrected before further inaccurate information is
communicated to the recipients.

Finally, we found that OCRM is sending cooperative agreement applications to GMD with
inconsistent information. For example, an application with a term of one year may have
supporting information provided for two years. GMD believes OCRM should work with the
recipient to correct these inconsistencies prior to OCRM sending the application to GMD, thereby
reducing the time GMD must spend on each cooperative agreement package. This is clearly an
example of how GMD needs to better communicate to OCRM problems and issues in the
cooperative agreement application process that occur as a direct result of OCRM’s activities. If
OCRM is alerted to these issues and can correct them, then GMD can do its job better. OCRM
agrees with this problem and, in the future, will correct discrepancies in the cooperative
agreement application packages before sending them to GMD.

It is clear that OCRM and GMD have made progress this past year in improving their cooperation
in streamlining the cooperative agreement or grant administration process. However, they need
to increase these efforts with the goal of providing one voice from NOAA to the awardees on
grant administration issues.



NOAA’s response to our draft report stated that it agreed with our recommendation that OCRM
and GMD coordinate their guidance to CZM and NERRS financial assistance recipients. It said

                                               24
U.S. Department of Commerce                                                       Report IPE-9044
Office of Inspector General                                                        December 1997

that the two offices would “coordinate all grant-related correspondence” as well as continue
quarterly coordination meetings, clarify the OCRM point-of-contact for grants issues, and clarify
and implement procedures for OCRM and GMD to follow when dealing with recurring grant
actions, such as award processing. These actions meet the intent of our recommendation.




                                                25
   U.S. Department of Commerce                                                                  Report IPE-9044
   Office of Inspector General                                                                   December 1997

   III.    Current Coastal Nonpoint Source Pollution Provisions Are Unworkable


   In 1990, as part of the Congress’ process of reauthorizing the CZM Program, a new section was
   added to the CZMA entitled “Protecting Coastal Waters.” The purpose of this new measure,
   commonly referred to as section 6217, was to address the impacts of nonpoint source pollution on
   the water quality of the coasts. Nonpoint source pollution is any water contamination that does
   not originate from a point source, such as a pipe or ditch. Typically nonpoint source pollution
   occurs when rainwater or snowmelt washes off agricultural fields and city streets, and picks up
   pollutants from the land surface, such as pesticides and animal waste, as its runs into rivers, lakes,
   wetlands, and coastal waters.

   Section 6217 requires that NOAA, specifically OCRM, work with the EPA to implement the
   statute, with the objective of strengthening the links between federal and state CZM and water
   quality programs to better manage land use activities that degrade coastal waters and coastal
   habitats. As part of section 6217, the 29 coastal states under the CZM program at that time were
   required to develop and submit a coastal nonpoint pollution control program submission for
   OCRM and EPA’s approval. The submissions were to lay out a state program that would
   strengthen standards and improve coastal water quality. The only other federally mandated
   nonpoint source pollution program was established by the Clean Water Act. In 1987, Congress
   passed the Water Quality Act, which added section 319 to the Clean Water Act. Section 319 was
   the first national nonpoint source pollution program, and is administered by the EPA and funded
   through federal grants to the states. Under this program, states are to develop both an assessment
   report detailing the level of nonpoint source pollution and a management program describing how
   the pollution will be controlled. The management programs are typically developed and managed
   by the state water quality agency and funded by EPA. The main connection between EPA’s
   section 319 program and section 6217 is that the coastal states may use their section 319 grants to
   cover expenses associated with complying with section 6217.

   From the outset, section 6217 has been fraught with controversy. While environmentalists
   generally hail the statute as a much needed step toward controlling nonpoint source pollution
   along the coast, state CZM program officials say that the program is both unworkable and
   politically untenable. The legislation was clearly ambitious in both its scope and time frame,
   which caused much of the controversy. In addition, federal funding provided to the states to
   develop the program submissions was limited and no additional funding is being provided to
   implement the actual programs. This has led state CZM program officials to refer to section 6217
   as an “unfunded mandate” from the federal government. Despite the controversy, all
   29 coastal states9 have submitted programs for OCRM and EPA review. However, officials at
   OCRM and EPA have stated that none of the state program submissions will receive final
   approval because the submissions do not fully comply with the statute. Instead, OCRM and EPA,
   in an attempt to be flexible and work with the states, have chosen to give the program
   submissions conditional approval, which gives the states up to five years to prove that the


  9
     The two states that entered the CZM program in 1997, Texas and Ohio, will be given 30 months from the date
of their entry into the program to submit a coastal nonpoint source pollution program to OCRM and EPA.

                                                         26
U.S. Department of Commerce                                                                        Report IPE-9044
Office of Inspector General                                                                         December 1997

measures set forth in their programs comply with the statute, as well as to address identified gaps
and develop other incomplete program elements. The coastal states’ inability to obtain final
approval indicates that they are having fundamental problems developing coastal nonpoint
programs under section 6217. Despite the problems, some benefits have accrued as a result of
section 6217 and this progress should be preserved. However, as it currently exists, section 6217
is not workable without improvements, such as changing the time frames for program
implementation.


A.         Requirements of the Statute Are Difficult to Implement

Many of the problems and controversy surrounding section 6217 arise from the structure and
requirements of the statute itself. Passed in 1990, section 6217 was designed to compel state
CZM and water quality agencies to address the growing problem of nonpoint source pollution
along the nation’s coasts. In most states, these two parties are not organizationally located in the
same agency, and previously had little interaction with each other. In addition, the statute also
required that the federal agencies responsible for administering the CZM program (NOAA) and
water quality programs (EPA) work together to ensure that their state partners were adequately
addressing the coastal nonpoint source pollution problem. To accomplish this, the statute
directed NOAA and EPA to jointly publish guidance for the states on how to develop an
acceptable program submission.

The states were given 30 months from the date of the publication of the final federal guidance to
submit a program to NOAA and EPA for approval. Section 6217 required that the state
programs contain “management measures.” Management measures are provisions for the
reduction of nonpoint source pollution that can be implemented through enforceable state policies
and mechanisms. Finally, the statute required that penalties be levied if a state failed to submit an
approved program within the allotted 30-month time-frame. The penalties were set as
10 percent of both federally-provided CZM and Clean Water Act10 funds in fiscal year 1996,
15 percent in fiscal year 1997, 20 percent in fiscal year 1998, and 30 percent in fiscal years 1999
and beyond.

In 1989, there was a strong push from some members of Congress to toughen nonpoint source
pollution provisions in the Clean Water Act, which was scheduled for reauthorization in 1990.
The proposed additional legislation to toughen those provisions would have required that all
states confront nonpoint source pollution problems through the application of management
measures. The Clean Water Act’s nonpoint source pollution program was previously based on
voluntary compliance and did not require management measures. However, for a number of
reasons, these efforts failed. In fact, the Clean Water Act was never successfully reauthorized in
1990, nor has it subsequently been reauthorized. To ensure passage of the tougher nonpoint
source pollution provisions, supporters moved the proposed legislation into the CZMA, which
was also up for reauthorization in 1990. The House of Representatives committee with
jurisdiction over the CZMA already had several efforts underway to address nonpoint source


10
     Specifically, funding provided through section 319 of the Clean Water Act would be targeted for penalties.

                                                          27
U.S. Department of Commerce                                                        Report IPE-9044
Office of Inspector General                                                         December 1997

pollution in the country’s coastal regions, so it made sense to move the proposed legislation into
the CZMA. The House of Representatives held hearings on the CZMA reauthorization in March
1990 and interest groups, federal agencies, and the public were invited to offer comments. At the
time of these hearings, the coastal nonpoint source pollution measures had already been moved
into the proposed bill to reauthorize the CZMA. However, a conference committee, formed by
the House of Representatives and the Senate to seek a compromise between different bill
versions, made significant changes to the coastal nonpoint source pollution portion of the
legislation, as detailed below. In November 1990, the reauthorization of the CZMA was passed
as part of the Omnibus Reconciliation Bill of 1990. Section 6217 of that bill contained the newly
rewritten coastal nonpoint source pollution provisions.

Almost immediately after the CZMA was reauthorized, the controversy began. The Coastal
States Organization, the association that represents the governors of the 35 coastal states and
territories, complained that the conference committee substantively changed the CZMA in a way
that would make it difficult for states to comply. Specifically, the states argued that the
committee changed the legislation so that section 6217 is now the only statute that addresses the
nonpoint source pollution problem by requiring that management measures be achieved through
enforceable state policies and mechanisms, such as state or local laws or regulations. States
would have preferred to be given the flexibility to decide whether an enforceable policy was
required to meet the particular management measure. Very often states find that voluntary, non-
enforceable policies are best to encourage compliance by polluters, such as those permitted by the
Clean Water Act. In addition, new regulations would have to be passed in the states to create the
enforceable policies required by section 6217.

These new regulations would apply to industries, such as timber and agriculture, whose polluting
practices had previously been largely unregulated by the state. In many states, these industries are
large and politically powerful. As a result, there is minimal political action taking place at the
state level to pass new regulations that might constrain or negatively impact the operation of these
industries. In our review, we found this problem to be particularly prevalent in the Great Lakes
states. Another controversial aspect of the section 6217 legislation was the 30-month time frame
permitted for submittal of the states’ programs. Again, most states needed to develop additional
state authorities (laws, enforceable standards, etc.) to meet the requirements of section 6217.
States argued that developing the authorities and gaining public and political support for passage
of such measures through the state legislatures or rulemaking would take more than 30 months to
accomplish.

The states observed that not only was the time frame unrealistic for submittal of their programs,
but the penalties that were to be levied for not submitting an acceptable program were misdirected
because they serve to penalize the regulator (state government), rather than the nonpoint source
polluter. In addition, the monetary penalties of section 6217, as described previously, were
considered to be a weak motivator to encourage states to develop and implement coastal nonpoint
source pollution programs. The penalties pale in comparison to the costs, both economic and
political, of implementing a coastal nonpoint source pollution program. For example, in one
Great Lakes state, the state estimated that the projected cost to the agricultural industry to fully
comply with all provisions of section 6217 is $500 million. This same state receives
approximately $800,000 in annual CZM funding from the federal government.

                                                28
   U.S. Department of Commerce                                                                      Report IPE-9044
   Office of Inspector General                                                                       December 1997

   In our discussions with state CZM officials on this issue, several states acknowledged that they
   have considered ending their participation in the CZM program rather than expending potentially
   excessive funds to comply with section 6217 in future years. Because compliance with section
   6217 is only applicable to states with federally approved CZM programs, dropping out of the
   CZM program means that states would no longer be subject to section 6217. However, leaving
   the CZM program is not considered a good alternative, either by OCRM or this OIG review team,
   since many states have made positive progress on many coastal issues while in the program. In
   addition, one state that was in the process of creating a coastal management program for
   acceptance by OCRM, has tentatively decided not to continue the development of its program
   because entering the CZM program would mean having to comply with the provisions of section
   621711. According to state officials, the general public in that state is opposed to the enforceable
   policies inherent in section 6217. Finally, the states argue that the success of the CZM program is
   due in great part to its flexibility and voluntary nature, yet section 6217 does not possess either
   quality. Some states believe that section 6217 was misplaced and is better suited to the Clean
   Water Act, providing there is also some flexibility built into the law for states to decide where
   enforceable policies make the most sense. The Clean Water Act, unlike the CZM program,
   applies to all states and all regions, not just those on the coast. As watersheds know no
   boundaries, in many cases it is the non-coastal regions (those not covered by section 6217) that
   are the upstream source of a considerable proportion of coastal nonpoint source pollution.

   B.       Limited Funding Available for Development and Implementation of State Programs

   In addition to the problems inherent in the section 6217 legislation itself, funding for the
   development and implementation of the states’ coastal nonpoint source pollution programs
   became a significant issue by 1992. The statute authorized NOAA to provide cooperative
   agreement funds to states to develop their programs. Specifically, section 6217 authorized $6.0
   million in fiscal year 1992, increasing to $12.0 million for each fiscal year from 1993 through
   1995, the last year covered by the statute. Actual appropriations were consistently less than the
   authorized amounts, and funding for the development of coastal nonpoint source pollution
   programs has never been more than $5.0 million in any one year (see Table III.1). Appropriations
   were allotted to the 29 states in the CZM program according to a formula based on coastal
   mileage and population.




   11
      This state is technically still developing its program, because it is still expending cooperative agreement
funds provided for that purpose. However, the last year the state received a CZM award was 1994 and unless the
state applies for additional funding, it is unlikely that much additional program development will be accomplished.

                                                           29
   U.S. Department of Commerce                                                                     Report IPE-9044
   Office of Inspector General                                                                      December 1997

   Table III.1: Section 6217 Appropriations, Fiscal Years 1992 - 1998
                                                                       Range of Amounts Allotted
           Fiscal Year                 Appropriation                         to the States
               1992                               $2,000,000                             $42,000 - 100,000
               1993                                2,000,000                              42,000 - 100,000
               1994                                4,000,000                              84,000 - 200,000
               1995                                5,000,000                             103,000 - 250,000
               1996                                           0                                              0
               1997                                           0                                              0
              199812                               1,000,000                                         250,000

   According to section 6217, the total amount of federal grant assistance provided to the states
   cannot exceed 50 percent of the total cost to the states of developing their coastal nonpoint
   pollution programs. However, for some states, the cost of developing a coastal nonpoint
   pollution program has been much greater than 50 percent of the limited funding provided under
   section 6217. In many states, additional staff were required, in both the state CZM agency and
   the state water quality agency, to develop the program. Additional staff was necessary to
   conduct essential interaction with other local, state, and federal agencies and officials, to arrange
   public hearings, and to perform general administrative coordination among the various parties
   with interests in section 6217 and the development of the program.

   Section 6217 did not provide any additional funding to help states in the actual implementation of
   their programs. According to the statute, once a state’s coastal nonpoint pollution program is
   approved, the cost of its implementation is to be drawn from existing grants or cooperative
   agreements under section 319 of the Clean Water Act and/or section 306 of the CZMA.13 OCRM
   and EPA have urged the states to work internally, between the CZM and water quality agencies,
   to prioritize tasks performed with section 319 and section 306 funding, to ensure that sufficient
   funding is allocated to the implementation of the states’ section 6217 program. Realistically,
   however, securing sufficient funding for the implementation of section 6217 programs will be a
   challenging task for the states. With rare exception, the awards received by the states under
   section 319 and section 306 are already being used to meet existing requirements under the Clean


   12
      According to the Fiscal Year 1998 President’s Budget, the funding provided in fiscal year 1998 is for the
development of section 6217 programs for the two states, Texas and Ohio, that entered the CZM program in 1997
and the two states, Georgia and Minnesota, still seeking approval for entry into the program.

   13
      Another source of federal funding that OCRM and EPA have identified for section 6217 implementation is
the Environmental Quality Incentive Program (EQIP), which is administered by USDA. EQIP has a total annual
appropriation of approximately $200.0 million and section 6217 is designated as one of its priority areas. It is
unclear whether any of the coastal states have been successful in obtaining any EQIP funding for section 6217
implementation.

                                                           30
U.S. Department of Commerce                                                         Report IPE-9044
Office of Inspector General                                                          December 1997

Water Act and the CZMA. According to several of the state CZM officials we interviewed, there
is no “extra” money available to fund section 6217, as both section 319 and section 306 awards
are covering programs mandated by the Clean Water Act and the CZMA. In addition, funding
received under section 319, a much greater amount per year than that received by the states under
section 306, is received by the state as a block grant and is controlled by the state agency
responsible for water quality. However, because section 6217 is under the CZMA, it is usually
the responsibility of the state CZM agency to administer the statute. As a result, the 6217
program is being forced to compete for section 319 funds with programs under the control of the
state water quality agency. In at least a few states, we were told that because section 6217 is not
a program housed in the state water quality agency, the agency is reluctant to hand over grant
funds to the state CZM agency to pay for section 6217 implementation. Therefore, with no
additional funding, states will have to take funds away from existing water quality and CZM
programs to pay for the implementation of their section 6217 program.

OCRM and EPA recognize that funding is a problem, but they are unable to obtain additional
funding. The statute only permits NOAA to provide funding for program development and not
program implementation. OCRM and EPA have tried to be flexible to make it easier for states to
implement their programs incrementally, so that smaller amounts of funding are required by the
states in any one year. In particular, OCRM and EPA have allowed the states the ability to phase-
in the implementation of their programs over time, as long as implementation is complete by 2004.
 However, because of the lack of federal funding for the implementation of section 6217
programs, the states will continue to experience problems in implementing a coastal nonpoint
source pollution program that meets all the requirements set forth in the statute. To help the
states, NOAA and EPA must create incentives to encourage the state agencies that receive federal
funding under the Clean Water Act (section 319) and EQIP to work with the state CZM agencies
in allocating grant funding to the section 6217 program. Because section 6217 implementation
will begin in earnest later this year, it is important that NOAA and EPA work together now to
identify other sources of funding to help states in implementing their section 6217 programs.



In its response to our draft report, NOAA agreed to “work with EPA regional offices and state
water quality agencies to ensure that an increasing amount of section 319 funds will be allocated
to support the approved state coastal nonpoint programs.” In addition, NOAA stated that it
would continue to work (1) with USDA to ensure coastal nonpoint source pollution efforts are
funded through EQIP, (2) through the regular budget process to seek an appropriate level of
funding to support states’ efforts to implement their section 6217 programs. Finally, NOAA said
it would work with other federal agencies to identify opportunities for directing federal funding to
assist states with their coastal nonpoint source pollution programs. These proposed actions meet
the intent of our recommendation.




                                                31
   U.S. Department of Commerce                                                                    Report IPE-9044
   Office of Inspector General                                                                     December 1997

   C.       Coastal States Are Having Fundamental Problems Developing Programs

   Due to the difficulty with the requirements set forth in the statute and the limited funding available
   for use in creating a coastal nonpoint source pollution program, the states are experiencing
   fundamental problems in developing their programs. As stated previously, the statute required
   that the states submit their program submissions for OCRM and EPA review and approval within
   30 months after the publication of the final federal guidance. This guidance was published in
   January 1993, so the proposed programs were to have been submitted by July 1995. However,
   after doing a preliminary review of the progress states were making toward developing their
   programs, it was clear to OCRM and EPA that several significant changes needed to be made to
   provide additional time and flexibility to the states in developing their section 6217 programs.
   Specifically, OCRM and EPA found that the states had many gaps in their draft programs. Given
   the limited resources the states had to work with, as well as the slow pace at which necessary
   legislative changes were occurring, it was clear to the federal agencies that the states would not
   be able to meet the approval requirements by July 1995. Therefore, in March 1995, OCRM and
   EPA jointly issued new, more flexible guidelines for the states to follow in developing and
   implementing their section 6217 programs.

   The new guidelines gave OCRM and EPA the option of granting conditional approval of a state’s
   coastal nonpoint source pollution program, rather than just final approval or no approval.
   Conditional approval would give the states up to five years14 to complete their program without
   invoking the penalty provisions set forth in the statute. The conditional approval option was
   intended primarily to provide states with additional time to obtain new statutory or regulatory
   approval and/or to demonstrate that existing authorities are adequate to meet the requirements of
   the statute. The guidelines did not, however, change the July 1995 due date for program
   submissions. All 29 states were able to submit programs for OCRM and EPA review, although
   not all were submitted by the July 1995 deadline. The statute also required that OCRM and EPA
   review all program submissions within six months of their submission, or by January 1996. Based
   on that schedule, starting in January 2001, statutory penalty provisions would be applied to states
   that had not yet received final approval.

   Despite the requirement that OCRM and EPA review all programs within six months of their
   submission, OCRM and EPA officials knew almost immediately that they were not going to be
   able to review all of the states’ program submissions and grant conditional or final approval of
   those submissions by January 1996. According to OCRM personnel, the statute failed to consider
   that NOAA, unlike EPA, is subject to the terms of the National Environmental Policy Act. This
   Act requires that any federal requirement, such as section 6217, be publicly assessed for its
   environmental impact. Therefore, NOAA was required to prepare one programmatic
   environmental impact statement for the entire section 6217 program and an individual
   environmental assessment for each state program. Both the programmatic environmental impact
   statement and the environmental assessments had to be published in the Federal Register and any
   public comments or suggestions had to taken into consideration, a process that alone can easily


   14
     The length of the conditional approval period would depend on the complexity of the work that still must be
done by the state in order to fully comply with section 6217.

                                                          32
U.S. Department of Commerce                                                              Report IPE-9044
Office of Inspector General                                                               December 1997

take six months. In addition to the National Environmental Policy Act requirements, the sheer
volume of the program submissions, the necessary legal and programmatic analyses, and the
substantial consultation required with some states in order for their program submissions to
achieve an acceptable level, prevented the federal agencies from completing their review within
the six-month time frame set forth in the statute.

Officials at OCRM and EPA completed their review of all program submissions in June 1997.
However, they were unable to give final approval to any of the 29 submitted programs because
none of them fully complied with the terms of the section 6217 statute. However, based on their
review, OCRM and EPA will be able to grant conditional approval for all of the state programs.

The fact that none of the states were able to submit a program that fully complied with the terms
of the statute is cause for concern. In most cases, state program submissions failed to identify the
need for new laws and regulations in order to comply with the provisions of section 6217. CZM
officials in several of the states that we visited stated that the programs they had submitted were
probably as complete as they would ever be, mostly due to the lack of political support for new,
tougher nonpoint source pollution regulations in their states. They also said that if, after the
conditional approval period had expired, OCRM and EPA began fully enforcing the terms of the
statute, including the penalty provisions, they would be forced to withdraw from the CZM
program. Losing states over the section 6217 issue is troubling because it will undermine the
larger goals of the CZMA and slow or compromise the progress in coastal management that has
been made through the program to date.


D.      Progress Made to Date Should Be Preserved

Despite the controversy surrounding section 6217, benefits have accrued as a result of the initial
effort in developing the coastal nonpoint programs and we believe these efforts should not be
abandoned. The most significant benefit has been the fact that the coastal states have been able to
identify both the strengths and weaknesses of their existing nonpoint source pollution strategies.
Many states found that there were holes or gaps in their strategies or that existing state
regulations were not sufficient to address the significant problem of nonpoint source pollution.
The coastal nonpoint source pollution program development process ended up providing the
states with an education about the problem, as well as a thorough inventory of nonpoint source
pollution measures already on the books in their states. Other benefits that have accrued as a
result of section 6217 include better working relationships between OCRM and EPA and between
some, but not all, of the state CZM and water quality agencies.

Nearly everyone we contacted during our review, from environmentalists to state CZM program
officials, agrees with the objectives of section 6217 -- to restore and protect coastal waters from
nonpoint source pollution. While environmentalists fully support section 6217 because it is the
only legislation that addresses the problem by requiring enforceable policies, the states tend to
fault this feature of the legislation because it is very difficult to obtain legislative approval for such
policies in many of the coastal states. Coastal states would prefer to rely on existing enforceable
policies which prohibit activities that affect coastal water quality because they rely primarily on


                                                   33
U.S. Department of Commerce                                                          Report IPE-9044
Office of Inspector General                                                           December 1997

voluntary compliance, but do provide the legal authority for enforcement if necessary. Section
6217 also has its proponents and detractors in the Congress, where its future is uncertain. At the
start of the 104th Congress in 1995, jurisdiction over section 6217 was moved from the
congressional committee with responsibility for the CZMA to the committee with purview over
the Clean Water Act and other water pollution issues. The Clean Water Act has not been
reauthorized since 1987 and the addition of section 6217 to that reauthorization package has not
made it any easier for the Congress to agree on reauthorizing it. A bill to reauthorize the Clean
Water Act was introduced in 1996, during the second session of the 104th Congress, but it was
never passed. Section 6217 proved to be one of the most contentious issues in the
reauthorization process as was evidenced by a heated floor debate on the statute. It is unclear
whether a bill to reauthorize the Clean Water Act will be introduced in the 105th Congress.

Recognizing that they are facing considerable difficulty in trying to implement their section 6217
programs and that the Congress may not act soon to make legislative changes, state CZM
program officials recently asked OCRM and EPA to examine four significant section 6217 issues
for possible administrative improvements. The four areas are: financial resources to meet the
statute’s objectives; time frames for implementing the program; application of enforceable policies
and mechanisms; and the ability to use a targeted approach to program implementation (only
applying section 6217 measures to those coastal areas where a state has problems with nonpoint
source pollution, versus applying it to the entire coastline.) Using a workgroup approach, the
states, OCRM, and EPA examined each of these four areas in detail to determine what
administrative changes OCRM and EPA can make to address the concerns of the states, yet still
maintain the integrity of the coastal nonpoint source pollution program and the statute itself. The
workgroups were successful in reaching a compromise in most of the areas reviewed, but there is
still disagreement on using a targeted approach to program implementation. The states would
prefer to be able to decide for themselves where the 6217 program is most needed on their
coastline and what management measures would be required to achieve the desired actions by
industry and others in that specific coastal region. The workgroups officially submitted their
proposed changes to OCRM and EPA on August 1, 1997. The two federal agencies are currently
reviewing these proposed changes and intend to publish the proposed changes in the Federal
Register in the next few months. It is at this point that other stakeholders, such as environmental
groups and affected industries, will have an opportunity to officially comment on the proposed
changes. Once all public comments are evaluated, OCRM and EPA will most likely issue new
administrative guidance to the states that provides new direction on how to comply with section
6217.

We commend both OCRM and EPA for recognizing the significant problems faced by the states
in trying to comply with section 6217 and the need to capitalize on the progress the states have
made to date in developing their nonpoint source pollution programs. The flexibility OCRM and
EPA have shown in trying to make section 6217 workable for the states has been admirable.
However, we are concerned that because of the large number of stakeholders in the outcome of
section 6217, and their divergent views on the subject, additional problems may be created by
further administrative changes to the federal agencies’ guidance on section 6217 implementation.
Environmental groups, for example, will likely argue that OCRM and EPA have watered down
the intent of the statute, making it less likely that the problem of coastal nonpoint source pollution


                                                 34
U.S. Department of Commerce                                                        Report IPE-9044
Office of Inspector General                                                         December 1997

will truly be addressed. Conversely, affected industries might argue that OCRM and EPA have
still not focused on the fundamental problems of section 6217, making it difficult to implement in
some states. If this controversy occurs, or if OCRM and EPA are unable to implement
administrative changes that are sufficient to address the four issues raised by the states, we
suggest that OCRM and EPA determine whether changes need to be made to the statute itself. If
so, any proposed legislative changes should immediately be referred to the Congress for action so
that the momentum achieved in addressing coastal nonpoint source pollution is not lost, and most
importantly, so that states will have a better chance of implementing an effective coastal nonpoint
source pollution program that will help meet water quality standards on the coast.



In its response to our draft report, NOAA stated that it will issue the proposed administrative
changes to the section 6217 program guidelines for public review and comment, and based on
those comments, revise and finalize the changes. In addition, NOAA will maintain an ongoing
dialogue with the states to assess the impact of the administrative changes. These actions comply
with the intent of our recommendation.




                                                35
U.S. Department of Commerce                                                        Report IPE-9044
Office of Inspector General                                                         December 1997

IV.    The Effectiveness of the Coastal Zone Management Program Has Not Been
       Measured


OCRM has two mandates under the CZMA to document the accomplishments of the CZM
program. First, OCRM is required to prepare a written evaluation that addresses the extent to
which each state has satisfied the goals of the CZMA every three years. Second, OCRM is
required to prepare a biennial report to the President, that includes a description of the
accomplishments of each state program during the preceding two years and a summary of the
national strategy and accomplishments for the entire coastal zone. In addition to the mandates
under the CZMA, OCRM will also soon be subject to the requirements of the Government
Performance and Results Act of 1993 (GPRA), a law passed by the Congress as part of the
current federal initiative seeking to better link resources with results. GPRA is intended to change
federal management and accountability from a focus on output, such as activities and staffing
levels, to the demonstration of outcomes, such as the difference a federal program makes on the
national economy.

Despite these mandates to demonstrate effectiveness, OCRM is only able to offer non-systematic
or anecdotal evidence to demonstrate the accomplishments of the CZM program. This anecdotal
evidence shows how well states are meeting goals and implementing their federally approved
management plans, but does not address the “on-the-ground” outcomes of the state programs.
On-the-ground outcomes are the specific measurable effects that result from implementing the
various CZM program tools and techniques, such as improvement in water quality in a particular
wetland or the number of miles of beach opened to the public. On-the-ground outcomes are
much more useful indicators of actual CZM program effectiveness than the type of information
currently put forth by OCRM.

The primary reason that OCRM is unable to report on the effectiveness of the CZM program is
the lack of a requirement for coastal states to collect the necessary data to measure the on-the-
ground outcomes of the program. The data that OCRM has required the coastal states to track
and maintain has historically focused more on coastal management processes, such as the number
of permits issued for coastal development or a description of plans created to deal with particular
coastal issues, such as beach preservation. The data generally does not address the actual
outcomes of those permitting actions or the documented results of the plans. Therefore, the
necessary data simply does not exist for use in measuring the effectiveness of the CZM program.
Further compounding the problem is the fact that OCRM and the coastal states have never, in the
25 years of the CZM program, consistently or routinely measured the status of natural resources
on the coast, so there is no extensive baseline inventory of these resources. Even if there was data
available on the current status of coastal resources, there are no readily available starting points
from which to assess trends.


Recognizing the need to evaluate the effectiveness of the CZM program, OCRM commissioned a
comprehensive study in September 1995. The National CZM Effectiveness Study was
competitively awarded as a $150,000 Sea Grant program grant, to a University of Washington


                                                36
U.S. Department of Commerce                                                        Report IPE-9044
Office of Inspector General                                                         December 1997

team that included five recognized coastal zone experts. The study was to measure the overall
effectiveness of the CZM program in addressing the following goals of the CZMA: natural
resource protection; public access to the coast; urban waterfront revitalization; and promotion of
coastal dependent uses, such as commercial boatyards, recreational marinas, and fisheries
development. OCRM selected these goals based on their significance and/or uniqueness to the
CZM program. These goals were also selected because they represent a combination of the often
competing objectives of the CZMA -- maintaining development activities while still protecting
natural resources on the coast.

The National CZM Effectiveness Study was to have been completed in October 1996. However,
as of August 1997, the study team had delivered only preliminary findings to OCRM. The broad
scope of the study, as well as the limited amount of funding available, are the primary causes for
the delay. OCRM and the Coastal Services Center were able to set aside approximately $25,000
in additional funding for the study. However, the additional funding did not help in getting the
study completed any faster. Due to the study’s broad scope, a significant problem seems to be in
reconciling the work of the five team members into one report. We found that each team member
designed his or her own data collection and analysis procedures, which resulted in five very
different formats for their findings. In addition, because of the different methodologies used in
collecting and analyzing the data, not all of the findings can be easily grouped with others to come
up with the overall findings. At this time, it is still unclear when the team’s final report will be
issued. While it is clear that OCRM should have played a stronger role in overseeing this study, it
is now appropriate for OCRM to bring the study to a close and make suggestions to measure
program effectiveness in the future.

In reviewing the preliminary findings submitted by the study team, we found that they have been
fairly successful in obtaining and summarizing the management tools used by the coastal states,
such as laws, regulations, programs, and techniques. However, the study team’s preliminary
findings indicate that on-the-ground outcome indicators for the areas being reviewed do not exist
for measuring the success of the CZM program since OCRM never required the coastal states to
collect the data necessary to make this assessment. As such, the team says it will be unable to
reach any conclusions as to the overall effectiveness of the CZM program.

The National CZM Effectiveness Study team is not the first to conclude that the effectiveness of
the CZM program could not be measured. A study by the Coastal Ocean Policy Roundtable, as
detailed in a September 1992 report, The 1992 Coastal Status Report: A Pilot Study of the U.S.
Coastal Zone and its Resources, found that there was insufficient information available to assess
the effectiveness of the CZM program on the coast. In addition, the report supported the need for
a comprehensive assessment of the U.S. coastal resources and the various activities that affect
them. Unfortunately, OCRM did not immediately follow-up on that 1992 study and begin to ask
the states to develop baseline data and report subsequent developments.

Clearly, the next step for OCRM, in coordination with the coastal states, is to make a concerted
effort to measure the effectiveness of the CZM program. OCRM and the coastal states must
understand what activities are best helping to achieve the goals of the CZMA in order to make
effective decisions in the future. Conversely, OCRM and the coastal states need to be aware of


                                                37
   U.S. Department of Commerce                                                                       Report IPE-9044
   Office of Inspector General                                                                        December 1997

   activities that fail to achieve the goals of the CZMA. Without accurate and valid information
   about the accomplishments and failures of their previous efforts, the coastal states and OCRM
   cannot responsibly plan for the future efforts of the CZM program. Further, showing results
   should also help counter the arguments made by those opposed to the CZM program15, or certain
   parts of it, such as section 6217. Finally, if the CZM program cannot substantiate its progress in
   meeting the objectives of the CZMA, it will be difficult for OCRM and the coastal states to justify
   future funding.

   OCRM now recognizes that it must measure the effectiveness of the CZM program in order for
   the program to continue and it has, just recently, begun impressing upon the coastal states the
   importance of measuring the program’s effectiveness. However, because the coastal states have
   not previously been required to collect the data necessary to measure the effectiveness of the
   CZM program, they are reluctant to begin now. They argue that they do not have the time or
   resources to collect the data or to conduct a thorough evaluation of coastal resources in their
   state.

   We recognize that the biggest hurdle for both OCRM and the coastal states will be how to
   allocate resources for the effort of measuring the performance of the CZM program. We believe
   that it is critical for OCRM and the coastal states to make some painful, yet necessary, tradeoffs
   with other CZM activities in order to assign more resources to the effort of measuring the
   effectiveness of the CZM program. In addition, in our discussions with several of the team
   members working on the National CZM Effectiveness Study, they indicated their hope to identify,
   in the study’s final report, those on-the-ground outcome indicators that states should be
   measuring. However, if the study is unable to deliver on this point, it will be up to OCRM to
   identify what it wants states to measure so that the information can be used in a national statement
   on the effectiveness of the CZM program.



   NOAA’s response to our draft report stated that it agreed with our recommendation to develop a
   strategy to measure the effectiveness of the CZM program and that it would begin to take action
   to put together a project team and conduct a national workshop to complete development of draft
   outcome indicators. While we are encouraged by NOAA’s recognition that the effectiveness of
   the CZM program must be measured, we are troubled by the amount of time (two years) that it is
   saying will be needed to develop and adopt specific outcome indicators. We expected that the
   results of the National CZM Effectiveness Study would have provided NOAA with a good head
   start to developing outcome indicators, yet this study is hardly even mentioned in NOAA’s
   response to our draft report. Because of the amount of time and money already invested in the
   National CZM Effectiveness Study, we encourage NOAA to build upon the results from that
   study, so as to reduce the amount of time it will take to develop workable outcome indicators.
   Although NOAA’s proposed actions generally meet the intent of our recommendation, we ask


   15
      During the course of our review, we did not identify any interest group or individual opposed to the overall
CZM program. By in large, the only opposition to the CZM program that we encountered was limited those who
had difficulty with the coastal nonpoint source pollution (section 6217) provisions of the program.

                                                            38
U.S. Department of Commerce                                                    Report IPE-9044
Office of Inspector General                                                     December 1997

that NOAA provide us with an action plan that addresses how the results of the National CZM
Effectiveness Study will be used to more quickly get to a point where coastal states can start
measuring outcome indicators for the purpose of assessing the effectiveness of the CZM program.




                                              39
U.S. Department of Commerce                                                          Report IPE-9044
Office of Inspector General                                                           December 1997

V.     Full Potential of the Estuarine Research Reserve Program Is Not Being
       Realized


In an estuary, freshwater from rivers meets and mixes with salt water from the sea producing a
variety of salinities suitable to a great diversity of marine and plant life. The National Estuarine
Research Reserve System (referred to as NERRS or Reserve System), created by the CZMA in
1972, is a network of protected lands designed to promote informed management of the nation’s
estuaries and provide a stable environment for research. In addition to research, education is a
key objective of the Reserve System. Every year, hundreds of thousands of visitors visit the
Reserves to participate in interpretive guided tours, educational classes, and training in estuarine
ecology. These dual objectives of research and education are what set the NERRS apart from
other federal protected area programs, such as EPA’s National Estuary Program, which tend to
concentrate only on research and generally are not open to the public. Likewise, the NERRS
program differs from the National Marine Sanctuaries program in that the Reserves are on land,
while the Sanctuaries encompass marine resources. In addition, the NERRS connection to the
CZM program is critical. Based on the understanding that sound coastal management decisions
must be based on fundamental scientific information, the Reserve System strives to perform
research and test management practices that will directly assist coastal managers and other
decision-makers.

To enter the Reserve System, supporters of a potential site must show that the site is well suited
to long-term estuarine research and education, it is compatible with existing and potential land
and water uses in contiguous areas, and its boundaries encompass an adequate portion of key land
and water areas so as to approximate an ecosystem. Another factor that OCRM must consider
when it reviews a potential Reserve System site, is how the new site would contribute to the
CZMA goal that all regions and habitat types of America’s coasts and the Great Lakes are
represented by the network. There are currently 21 designated Reserves, consisting of
approximately 440,000 acres of protected estuarine lands in 20 coastal states and Puerto Rico,
that are funded at $4.3 million annually.

While the NERRS is a unique system with considerable potential, it faces a number of challenges.
First, Congressional funding for the program has not increased significantly as new NERRS sites
gain entry to the system. This has resulted in increased pressure on the Reserve System’s
resources and finances. As a result, current funding is less than adequate to support the
program’s ambitious goals of estuarine research and education. Difficult choices will have to be
made in order for the Reserve System to remain a viable program. Second, an existing policy to
encourage NOAA-sponsored research in the NERRS and the National Marine Sanctuaries is
routinely ignored and should be reiterated. Third, the Reserves need to become more visible in
the scientific community and increase use of their sites. To meet this challenge, the Reserves need
to develop site profiles that will serve both as a baseline of the sites’ characteristics and help
researchers choose appropriate sites for their investigations. Fourth, the usefulness of NERRS
scientific results could be improved if brief and clear summaries of their research were made
available more routinely to both CZM managers and the public. Finally, improvements in the
Reserve System cannot be made without key staff in place at the right time. The education and


                                                 40
U.S. Department of Commerce                                                              Report IPE-9044
Office of Inspector General                                                               December 1997

research coordinator positions in the Reserves are often vacant for several years after designation,
thus making it difficult for a new Reserve to get off to a good start.

A.      Difficult Choices Must be Made to Keep Research Reserve System Viable

Over the nearly 25-year history of the NERRS program, significant progress has been made in
furthering its primary goals of integrated estuarine research, education, and advocacy dedicated to
improving coastal management. Unfortunately, the program’s continued success appears at risk
because OCRM officials have, until recently, allowed the number of Reserves to steadily increase
without:

       (1) corresponding increases in funding to properly accommodate the new
           Reserves, or

       (2) establishing a process that ensures that the available -- albeit limited --
           funding is directed to the program’s best performing Reserves.

This problem has been particularly evident in recent years and is expected to become more severe
in fiscal year 1998 when four new Reserves are projected to enter the program with no increase in
funding. (See Table V.1)

Table V.1: Reserve System Appropriations in Selected Years ($000)
                      1974       1980       1984        1990       1994       1996          1998
 Number of                   1          9        13         18         22         21           25*
 Reserves
 Total               $4,000      $3,000     $2,930      $3,490    $3,214      $4,300        $5,650
 Appropriation
* Projected

In 1974, the NERRS program, consisting of just one Reserve, received its first appropriation of
$4 million. Throughout the 1980s, the appropriation generally remained level at about $3 million
per year. During this period, however, the Reserve System grew from a total of nine sites in
1980, to 18 sites by the end of the decade. Throughout the early 1990s, the annual NERRS
appropriation has been approximately $3 to 4 million per year and currently is just $300,000
higher, without inflation adjustment, than when the program first began receiving funding in 1974.
Four new Reserve sites were designated in 1991 and 1992 bringing the total system size to its
current 21 sites.

Over the years, in order to compensate for the growth in the number of Reserves and the limited
available funding, OCRM has increased the amount of funding provided for the day-to-day
operations of the Reserves and virtually eliminated the amount allocated for the acquisition of
land to develop new Reserves. In fact, OCRM has not been able to provide significant funding
for this purpose since the late 1980s. As a result, states have had little or no federal assistance to


                                                   41
   U.S. Department of Commerce                                                                            Report IPE-9044
   Office of Inspector General                                                                             December 1997

   secure lands for Reserves in those biogeographical areas not yet represented in the NERRS
   program, thus preventing the Reserve System from becoming fully representative of the estuarine
   ecosystems found in the United States.

   The operations funding per Reserve generally increased from $70,000 to $110,000 in 1990, and
   to $125,000 in 1996. Today, the amount provided to each Reserve is $135,000. In addition to
   this funding, most Reserves also receive two competitive graduate research fellowships valued at
   $16,500 each, while a few Reserves receive just one fellowship and two Reserves receive none.
   Ironically, OCRM’s own internal studies show that each Reserve requires at least $200,000 in
   federal funding, exclusive of the research fellowships, to maintain a basic level of operations.
   Also, in 1993, an independent review panel assessed the NERRS program and in its report,
   Building a Valuable National Asset,16 the panel suggested that each Reserve should receive
   $405,000 per year in federal funding to successfully meet the NERRS program objectives.
   Clearly, without sufficient federal funding, the states have had to contribute more than what is
   required of them by the CZMA17 just to keep the Reserves operational. However, the states have
   also faced funding shortfalls and have not always been able to provide enough funding to ensure
   that the Reserves do not face problems. As discussed later in this chapter, insufficient funding has
   contributed to many of the concerns we have with the NERRS program, including
   underutilization of the Reserve System for research, problems in linking research and education to
   coastal management issues, and staffing shortages in the Reserves.

   The funding problem is likely to become more severe as new Reserves are added in the future. In
   addition to the 21 sites currently in the program, there are six additional proposed Reserves
   currently in the review, or “designation,” process. Four of these potential Reserves are located in
   the states of New Jersey, New York, California, and Florida. Each of these Reserves are eligible
   for, and slated to receive, federal funding for operations when they come on-line in 1998. Two
   additional Reserves in the designation process, located in Alaska and Mississippi, will be paid for
   with state funds or funds from another source. For example, the new Alaska Reserve will be paid
   for using funds set aside from the settlement of the Exxon Valdez disaster.

   In 1995, OCRM decided not to permit any other potential Reserves to enter the designation
   process unless, like Alaska and Mississippi, they are able to enter the program without the
   promise of federal funds.18 The four potential Reserves in the states of New Jersey, New York,
   California, and Florida were already in the designation process at the time of the new policy and
   were allowed to continue towards admittance to the program. Therefore, until funding is
   increased, the NERRS program will consist of a maximum of 27 sites, unless future sites can be
   developed without the promise of federal funding. To date, at least five potential sites have been


   16
      “The National Estuarine Research Reserve System: Building a Valuable National Asset”, a report to NOAA
from the Review Panel on the NERRS, Robert W. Knecht, Chair, October 1993.

   17
        The states are required to match federal NERRS funding at 30 percent on the dollar.

   18
       Sites that do not receive federal funds will still be held to the site designation rules and regulations set forth
in the CZMA.

                                                               42
U.S. Department of Commerce                                                          Report IPE-9044
Office of Inspector General                                                           December 1997

turned away by OCRM, and it is suspected that several more have been discouraged from even
contacting OCRM after hearing of the new policy. This was a difficult decision for OCRM
because of its desire to allow any site that met the requirements of the CZMA to be permitted
entry to the system. However, OCRM felt that the integrity of the current Reserve System would
likely be sacrificed if the system continued to grow without corresponding increases in the
NERRS appropriation. It appears unlikely that there will be large increases in the NERRS
program’s appropriation in the near future, although we are encouraged by the 30 percent
increase the Congress provided for the program in fiscal year 1998. Therefore, hard choices will
have to be made within the limitations of current and probable appropriations.

OCRM recently took steps to help protect the integrity of the Reserve System by limiting the
number of new Reserves that may enter the program in the future. However, this is just one
option for dealing with the funding problem, and it may not be the best strategy for keeping the
NERRS program viable. By limiting the addition of any new Reserves, OCRM may be hindering
its ability to achieve broad biological and geological representation in the sites within the Reserve
System. In addition, OCRM is giving an unfair advantage to those Reserves that came into the
program first. Under the current strategy, a stellar potential Reserve applying to the program
would be turned down, while a less than effective Reserve would be allowed to continue in the
program just because it was admitted first.

In addition to the option chosen by OCRM to deal with the funding limitations, they might
consider refining and improving the criteria by which a Reserve is judged suitable for entry into
the program. Criteria could include the completion of a site profile, full staffing levels, and active
research projects in support of the NERRS and CZM program objectives. Both current and
future Reserves could be judged against these criteria and only those Reserves that were judged
best would be permitted in the Reserve System. Another option might be to divide up the limited
federal dollars based on the accomplishments of the Reserves, rather than giving each Reserve the
same amount of funding regardless of their contributions to the program. Under this option,
those Reserves unable to perform would eventually be dropped, thus making the entire Reserve
System stronger. A final option might be to set a realistic cap on the number of Reserves, based
on the available (and anticipated) funding and OCRM’s estimation of the amount of funding
needed by each Reserve to best meet the objectives of the NERRS program. The cap should be
set low enough to ensure that the Reserve System could be supported even in austere budget
years. Current and future potential Reserves that wish to receive federal funding, would then
compete for retention or admission to the NERRS program. Reserves could compete based on
the strength of their research and education programs, their contribution to the goal of
biogeographical representation, and their ability to support the CZM program. Those Reserves
that do not require federal funding would not be subject to the cap.

We recognize that these are difficult options to contemplate for a program that has long prided
itself on being open to all sites that meet the requirements set forth in the CZMA. In actuality,
however, the Reserve System is not an entitlement program and for the sake of the program’s
future, difficult decisions must be made to protect its integrity and effectiveness. We are not
advocating any particular option as being the best one for the program and OCRM. They are
presented simply to show that if tough decisions are made, a stronger NERRS program is


                                                 43
U.S. Department of Commerce                                                        Report IPE-9044
Office of Inspector General                                                         December 1997

possible, even within the tight funding constraints currently threatening the Reserve System. We
suggest that OCRM, with the assistance of other NOAA offices, determine how the goals and
objectives of the NERRS program can best be attained in an era of declining federal funding. A
good starting point for this assessment is the recently completed Strategic Plan for the program.
The plan effectively outlines the critical problems facing the Reserve System and identifies
program priorities within the context of available funding.




In its response to our draft report, NOAA stated that it would “review NERR standard operating
procedures to make clear the policy on admitting new reserves into the System, including possible
criteria for new sites.” NOAA also said it would review and make recommendations on funding
allocations to Reserve sites and review NERR work plans against the NERRS Action Plan. While
these actions generally meet the intent of our recommendation, we ask that NOAA carefully
consider the potential options set forth in the above section. We recognize that these are not
popular nor easy options, but they need to be evaluated.


B.     Research Should Be Performed in Accordance with NOAA Policy

The Reserve System was established to ensure a stable, protected environment for research and to
address significant coastal management issues. The results of research conducted in the NERRS
are used to inform coastal managers and the public, especially local citizens, of the factors
affecting the health of estuarine areas in order to better preserve, protect, and restore them.
NOAA is supposed to promote and coordinate the use of the NERRS (and the National Marine
Sanctuary Program) for research purposes, so that relevant information can be provided to those
making decisions about coastal resources. In particular, the CZMA states that, in acting to
promote and coordinate the use of the system for research, the Secretary shall require that NOAA
“give priority consideration to research that uses the Reserve System.”

In May 1992, John A. Knauss, then the Under Secretary for Oceans and Atmosphere, signed a
directive stating that the NERRS and the National Marine Sanctuaries were to receive priority
consideration for NOAA-sponsored research. The directive indicated that this policy would be
implemented through a clause in NOAA’s request for applications, through cooperative funding,
and by improved lines of communication between OCRM’s Sanctuaries and Reserves Division
and other NOAA programs. This clause, to be inserted into all appropriate NOAA funding
announcements, strongly encouraged prospective investigators to consider conducting research at
National Marine Sanctuary and/or NERR sites. The word “appropriate” was included so that the
policy applied only to relevant research that could benefit from using the Reserves or Sanctuaries.
The use of this term, however, has provided a loophole for certain offices to exclude this clause in
their announcements to direct researchers to the NERRS and Sanctuaries.

In practice, the directive has not been adhered to, even when applicable. To examine the degree
of compliance with the supportive language clause called for in the May 1992 memo, we sampled
33 NOAA-funded announcements of various research opportunities from five NOAA offices for

                                                44
U.S. Department of Commerce                                                         Report IPE-9044
Office of Inspector General                                                          December 1997

fiscal years 1995-97. In 27 of those cases, an insertion of the language calling for research to be
done in the Reserves or Sanctuaries seemed inapplicable to that particular announcement. In six
cases, some or all of the research mentioned in the funding announcement could have been
performed in either the NERR sites or the Sanctuaries. Only one of the six announcements,
however, contained the applicable clause.

Non-implementation of this policy results in underutilization of these unique Research Reserves.
As a result, the NERRS program falls short of its potential for developing knowledge useful to
CZM managers and other stakeholders who could best protect these and similar estuarine areas.
We found that non-implementation is related, in large part, to the opposition of some in academia
supported by NOAA grants, as well as some scientists within NOAA, who resist any policy or
guidance that would limit their research options. They believe that non-scientific intrusion into
any aspect of their research might bias their work and its results. However, we do not believe
that this policy to guide research to designated sites needs to compromise research quality.
Funding decisions can be made, primarily, on the criteria of research quality and, secondarily, on
programmatic grounds. Among research proposals of similar quality, those that opt for
conducting research in the NERRS would be given additional weight but need not be given
consideration over superior research. NOAA has parallel obligations to fund high quality research
and to maintain and improve its existing programs, such as the NERRS. The May 1992 directive
is still NOAA policy. It is important that the policy be both reiterated and followed in order to
allow the NERRS program to attain its potential as a network of vital research centers that
answer crucial questions that arise in the management of coastal ecosystems.



In NOAA’s response to our draft report, it agreed with our finding and stated that it would draft
an updated memorandum by November 15, 1997. NOAA also stated that the Assistant
Administrator of NOS would consult with the other Assistant Administrators on the
implementation of the memorandum 60 days after its distribution and assure ongoing
implementation of the memorandum. While these actions generally meet the intent of our
recommendation, we ask that NOAA take appropriate action to ensure that this memorandum is
issued within 60 days of the publication of this report. We would like to be provided with a copy
of the memorandum when it is issued. In addition, six months after the release of the
memorandum, we would like to be provided with a summary of NOAA’s compliance with the
terms of the memorandum, including the percentage of appropriate NOAA-funded
announcements that encouraged research to be performed in the NERR sites or the Sanctuaries
and a brief description of new research projects that have been started in the NERRS as a result of
this effort.


C.     Reserve System Is Underutilized for Substantive Research

State NERRS officials, as we have already mentioned, generally feel that the Reserves are not
sufficiently recognized either within the Sanctuaries and Reserves Division or NOAA as a whole.
However, the problem also extends to the larger scientific community, including other federal
agencies that perform coastal-related research. NERRS officials believe the system is not well

                                                 45
U.S. Department of Commerce                                                         Report IPE-9044
Office of Inspector General                                                          December 1997

known and, therefore, is not fully appreciated and used by researchers as a unique system for
integrated research, monitoring, and education. Utilization by more researchers would bring in
additional funds and talent, as well as build greater links to the local community,
environmentalists, and coastal managers. Greater utilization of the NERRS sites would also build
the credibility of the entire system and help it meet its potential.

One of the main functions of the NERRS program is to provide research opportunities for
researchers, graduate students, and advanced undergraduates. Each Reserve has its own unique
physical and geographical characteristics, as well as land and water species. Scientists need to
know the distinctive features of each Reserve in order to select the appropriate site to conduct
their research. Research on restoration of mangrove wetlands, for example, could be performed
at Rookery Bay, Florida, where mangrove forests are extensive. Similarly, studies of the effects
of pesticides and fertilizers on estuarine systems might be done at Weeks Bay, Alabama, or Old
Woman Creek, Ohio, where such work is already established. However, in many cases,
researchers do not readily have access to this information about Reserve capabilities and ongoing
research, so often the Reserve System is overlooked when researchers make decisions about
where to conduct their research.

Each Reserve, as required by the CZMA, is responsible for developing a site profile, that will
provide researchers, students, coastal managers, and the public with detailed summaries of site
resources and discussions of issues of concern. A site profile, at a minimum, should include the
existing state of scientific knowledge about the Reserve’s resources, a description of ongoing
research and monitoring efforts, and an identification of future research needs and opportunities.
Site profiles are intended to be primarily technical documents that summarize scientific
information for academic and agency researchers to enable them to decide on the most
appropriate Reserve for their work. The site profiles would also provide baseline information
needed to make decisions that will help sustain estuarine resources and protect ecosystem
integrity. The development of site profiles is, in fact, part of a three-phase monitoring program
that involves characterizing the Reserve environment, the more in-depth development of a site
profile, and long-term monitoring. The NERRS sites have made a good start in this area both
through initial environmental site characterization and systemwide monitoring efforts. However,
most Reserves have not completed a site profile due to funding constraints, inadequate staff to
complete the profiles, or competing program priorities.

Thus far, only the Tijuana River, California; Great Bay, New Hampshire; and Waquoit Bay,
Massachusetts, Reserves have completed their site profiles. During our field visits, several
Reserves raised concerns about their individual difficulties in completing this task. State NERRS
officials and staff said they need both assistance from outside researchers to develop a
comprehensive site profile, and additional funding to write, publish, and distribute the profile.
Furthermore, staff believe that little direction has been given by OCRM’s National Research
Coordinator on how to complete the site profile. Although several Reserves stated a lack of
funding as a primary reason for not having completed the site profile, the CZMA states that the
Reserves are to use monitoring funds to complete the site profile. Many Reserve managers have
chosen, however, to concentrate on developing a strong monitoring program with the funds
available rather than use a portion of those funds to develop site profiles. The three Reserves that


                                                46
U.S. Department of Commerce                                                        Report IPE-9044
Office of Inspector General                                                         December 1997

have completed their site profiles did have help from outside researchers, but they also chose to
prioritize the site profile by spending a portion of their monitoring funds for this task.

OCRM recognizes the importance of completing site profiles and has addressed the completion of
this goal during fiscal years 1997-1998 in the Sanctuaries and Reserves Division’s three-year
action plan. The plan estimates that an additional $500,000-$1.0 million will be needed to
complete the site profiles. Although the action plan identifies the need for funding to complete
site profiles, the NERRS sites did not receive any additional federal funding in fiscal year 1997.
OCRM has received additional finding for fiscal year 1998, but it is unclear how that additional
funding will be allocated. Nevertheless, the Reserves must begin or continue developing site
profiles with a portion of the federal monitoring funds and seek additional funds from other
sources to help complete this task.

We believe that OCRM needs to stress to the Reserves the importance of completing their site
profiles in a timely manner. OCRM did recently provide Reserve managers with specific guidance
on developing site profiles and has identified the minimum amount of information necessary to
make each Reserve’s profile a meaningful and useful document. Perhaps sharing the three
completed site profiles with the other Reserves would also be helpful. The expeditious
completion and distribution of site profiles will allow the Reserve System to begin attracting
researchers and improving the connection between research, education, and stewardship.



NOAA’s response to our draft report acknowledged the importance of site profiles and stated that
NOAA will continue to seek cooperative funding from other sources for the completion of the
NERRS site profiles. This action only partially complies with the intent of our recommendation.
NOAA has not put in place mechanisms to ensure that all site profiles are completed in a timely
manner, which we believe is fundamental to encourage the Reserves to finally complete this task.
Therefore, we are asking that NOAA provide us with an action plan detailing what mechanisms it
will put in place to ensure the site profiles are completed as quickly as possible. In addition, we
expect NOAA to direct a good portion of its fiscal year 1998 NERRS funding increase to this
extremely important component.


D.     Research and Education Performed in the Reserve System Should Be More Strongly
       Linked to Coastal Management

The CZMA suggests that research performed at NERRS sites should be designed, in part, to
address relevant coastal management issues. To meet this requirement, OCRM’s Sanctuaries and
Reserves Division makes approximately $750,000 available per year for competitive research in
the NERRS. Recent research priorities have been nonpoint source pollution and habitat
restoration. Research in NERRS sites is also supported by a number of other federal and state
programs as well, especially the National Science Foundation’s Land Margin Ecosystem Research
Program. In addition to sponsored research, the Sanctuaries and Reserves Division also instituted
a national systemwide long-term monitoring program in fiscal year 1994. This monitoring
program provides a national model for water-quality data collection between research sites. Data

                                                47
U.S. Department of Commerce                                                         Report IPE-9044
Office of Inspector General                                                          December 1997

collected by mechanized data loggers at each site are analyzed and the results sent to a shared
nationwide database for storage, standardization, analysis, and graphic manipulation. Research
Coordinators at the NERRS sites assist with logistics, provide laboratory and field facilities, and
offer assistance for both research and the long-term monitoring program.

In our discussions with state CZM managers, they agreed that scientific research and monitoring
performed in the NERRS has helped to address issues related to estuarine protection and
restoration. However, the link between science performed in the NERRS and CZM management
could be made stronger if clear, brief summaries of results of research performed in the NERRS
were made available more routinely to both CZM managers and the public. As discussed earlier
in this report, the translation of research is a crucial function that makes scientific research
accessible to many different audiences such as coastal managers, stakeholders, and local citizens.

A general strengthening of this function in the NERRS, as well, would increase the use of science
to help make sound management decisions. The Waquoit Bay, Massachusetts, NERR,
recognized this need and created a distinct position of Research Translator who rewrote scientific
findings in a form useful to multiple audiences, especially coastal managers. Given funding
problems at many NERRS sites, however, it is unlikely that a separate translator position could be
created. In other Reserves, this function could be the responsibility of either the Research or the
Education Coordinator. Whoever performs this function, however, needs to understand the
“language” and relevant issues and problems of scientists as well as those of coastal managers.
Each Reserve should concentrate on succinctly conveying the most relevant aspects of research to
busy state CZM officials to better enable them to manage wetland and estuarine areas. The
Sanctuaries and Reserves Division’s National Research Coordinator should encourage this
translation function within the Reserve System and find a way for scientific information to be
prioritized, summarized, and systematically circulated both to state CZM managers and relevant
personnel at NOAA.

With regard to education, the other main objective of the NERRS program, many Reserves have
created programs that strive, through outreach, to both raise the level of environmental awareness
and create a general stewardship ethic in the public. While this is a worthwhile goal, it is similar
to the efforts made by many interpretive nature centers and environmental educators throughout
the country. The Sanctuaries and Reserves Division’s National Education Coordinator, however,
believes that this function should go beyond just general environmental education to promote
behavior change in those segments of the public whose activity has a real impact on a NERRS site
or a similar coastal area. For instance, strawberry growers upstream from the Elkhorn Slough,
California, Reserve are learning to adopt best management practices for fertilizers, pesticides, and
to control run-off by planting vegetative buffer strips. By implementing these best practices, the
health of the Reserve and the nearby area can be improved. While the National Education
Coordinator encourages the Reserves to go beyond general environmental education, we found
that some Reserves are more comfortable with a general environmental education approach and
do not agree with this more focused behavioral change strategy. Nevertheless, the National
Education Coordinator should continue to promote and reinforce education programs that are
clearly linked to coastal management issues.



                                                 48
U.S. Department of Commerce                                                          Report IPE-9044
Office of Inspector General                                                           December 1997




In its response to our draft report, NOAA agreed with our finding and recommendation. It stated
that it would evaluate the types of information needed and formats used by coastal managers and
identify opportunities to package Reserve System results on a national and/or regional basis.
These actions meet the intent of our recommendation.


E.     Staffing Shortages at the Reserve Sites Have Limited the Effectiveness of the Program

Typically, there are three staff positions at a Reserve: Site Manager, Research Coordinator, and
Education Coordinator. In addition, the Reserves typically receive $135,000 per year in federal
funding to finance their operations. Each Reserve is different, but typically staff positions are paid
for with state funds, while the federal funds are used to pay for other components of the
operation, such as educational programs or facility maintenance. The three staff members are
responsible for core operations of the Reserve, although at some Reserves they are supplemented
with additional help. However, most Reserves, when initially designated, are staffed with only a
full-time Site Manager and either Research or an Education Coordinator. Often, either the
Research or the Education Coordinator position is filled by a part-time staff person. Ultimately,
the Reserve suffers if all three core staff positions are not properly filled at the beginning of the
Reserve’s operation.

The Research and the Education Coordinator positions are critical to the operation of the
Reserves. A Research Coordinator is needed to implement the research plan section of the
management plan, implement the NERRS monitoring plan, promote the Reserve’s resources as a
natural laboratory for studies, and direct and supervise research interns. The Research
Coordinator also serves as the liaison with the scientific community and coastal managers,
promotes data utilization, and acts as the primary contact for scientists performing research within
the Reserve System. This includes coordinating research activities within the Reserve,
communicating with other Reserves, and actively promoting a site for conducting research and
monitoring.

Likewise, Education Coordinators are responsible for a broad spectrum of activities, such as
training state and local permit administrators, assisting teachers to both meet state continuing
education requirements and bring knowledge of estuaries into the classroom, and providing
information and assistance to the general public. The NERRS Education Coordinators also issue
and accept funding requests for education, interpretation, and visitor use programs, and conduct
peer reviews of proposals received. Finally, Education Coordinators work with coastal managers
to identify and address issues and problems that have the most significant impact on coastal areas.

We found that there are two major reasons for inadequate staffing at many of the Reserve sites.
First, OCRM has not required new Reserves entering the system to have all three positions filled
in order to receive designation. As a result, many positions go unfilled until OCRM conducts a
performance evaluation three years after a Reserve is designated. Then, OCRM gives them three
additional years, until the next performance evaluation, to fill the vacancies. For example, the
Sapelo Island, Georgia, NERR, was told in its last performance evaluation, in September 1996,

                                                 49
U.S. Department of Commerce                                                        Report IPE-9044
Office of Inspector General                                                         December 1997

that the Research Coordinator position must be filled by the next scheduled evaluation in 1999.
This is too long a period for a Reserve to experience under-staffing and potentially inadequate
management. Second, the states, whose obligation it is to hire and fund these positions, are not
meeting their responsibilities to ensure that the Reserve sites are getting off to a good start.
Inadequate funding has often been cited by states to explain why they are unable to fill these key
positions. In many cases, OCRM cannot force states to fill these positions after designation,
because they are funded through non-matching state funds. Therefore, OCRM needs to work
with the six proposed Reserves currently in the development process to ensure that staffing of all
three positions is completed before OCRM designates the site as a member of the Reserve
System. This policy should be formalized in appropriate guidance provided to prospective
Reserves, so that it is understood that a complete staff contingent must be in place before the
Reserve will receive the official designation of entry into the NERRS program. For Reserves
already in the program, a complete staff, regardless of funding source, should be added as a
requirement for renewal of the federal cooperative agreement for the Reserve.



In its response to our draft report, NOAA stated it would “put appropriate states on notice that
during the next grant cycle, core positions/functions must be filled. NOAA funds must be used to
complete staffing before going toward other reserve tasks. If, within one year, positions are not
filled, NOAA will consider reducing funds or taking de-designation actions.” NOAA also stated
that it would evaluate the core functions that a Reserve needs and make appropriate changes to
the NERRS Standard Operating Procedures. However, NOAA did not address the key point in
our recommendation--that the designation policy for new NERRS sites be changed so as not to
permit entrance into the Reserve System unless core staff are in place. Therefore, we request that
NOAA reconsider its proposed actions to include making the above change to the NERRS
designation policy.




                                                50
U.S. Department of Commerce                                                         Report IPE-9044
Office of Inspector General                                                          December 1997

VI.    The Coastal and Marine Management Computer Information System Lacks
       Sufficient Resources


Currently, all cooperative agreement applications and performance reports prepared by the coastal
states are manually submitted to OCRM and GMD for review. With the number of coastal states
increasing, and the staff level in OCRM and GMD generally declining, keeping up with all the
required paperwork has become a serious challenge for the two offices. OCRM recognized that
the review of paperwork was slowing down its responsiveness, so, in the summer of 1995, it
began developing a computer-based information system called the Coastal and Marine
Management Program (CAMMP). The project is being jointly designed by OCRM and NOS’s
Office of Ocean Resources Conservation and Assessments (specifically their Strategic
Environmental Assessments Division), with input from GMD and officials from several of the
coastal states. CAMMP is intended to process cooperative agreement applications and
performance reports electronically. However, the ultimate objective is for CAMMP to be a
consistent, national database of coastal management information, accessible by the Internet, for
use by state CZM and NERRS program officials. The users will be able to query the CAMMP
database of research, education, projects, and policies to obtain information on a real-time basis to
assist them in decision-making.

When fully completed, CAMMP is expected to provide many benefits, including simplification
and standardization of requirements for the award application and performance reporting process.
 CAMMP will allow state program officials to submit applications and performance reports
electronically, thus significantly reducing the amount of paperwork the coastal states must submit
to OCRM and GMD. A standardized format will allow OCRM and GMD to process the
information more efficiently, as opposed to receiving it in the many different formats the coastal
states use currently. In addition, CAMMP will provide built-in mathematical checks on the data
being entered to minimize errors in the financial assistance application process. The CAMMP
database should also be a tremendous resource to OCRM and the states for technical issues, such
as compiling information for both the Biennial Report to the President and performance reviews.
The database will list coastal management information by subject and regions, making it useful for
state CZM and NERRS program officials, academia studying coastal management, and OCRM
staff to find information that is specific to their coastal management issues. For example, if a
coastal manager wants to find out the research results and best practices for using beach grass to
preserve dunes, he could use the system to identify ongoing or past projects and practices
reported by the various other coastal managers.

Over the 22 months CAMMP has been in development, approximately $280,000 has been
expended on the project. Just over half of this amount ($154,000) has been OCRM and Strategic
Environmental Assessments Division staff time. Discretionary funding from OCRM, in the
amount of $80,000, was paid to a contractor for computer programming. Finally, in April 1997,
OCRM was awarded an additional $46,400 for the CAMMP project in a Pioneer Grant issued by
the Office of the Secretary of the Department of Commerce. These funds will primarily be used
for the purchase of electronic versions of federal forms. While additional funding could certainly
be used for specific project tasks, as well as to conduct the necessary training for OCRM staff and


                                                 51
U.S. Department of Commerce                                                        Report IPE-9044
Office of Inspector General                                                         December 1997

state coastal management officials, the biggest problem in CAMMP’s development has not been
funding. Rather, the absence of staff dedicated to the project has caused it to languish, with tasks
being done piecemeal and only as staff have time. Over the course of CAMMP’s development, no
single person has been devoted to the project on a full-time basis. OCRM has tasked four people
to work on the CAMMP project on a part-time basis, for a total effort of less than one full-time
staff person. Two people from the Strategic Environmental Assessments Division have spent
approximately 20 percent of their time providing computer programming and analytical services
to the CAMMP project for the past year and a half. Additionally, GMD has assigned a liaison to
the project who is working on a part-time basis only. As a result of the minimal level of staff
assigned to the project, CAMMP’s development schedule has been slowed tremendously.

OCRM is now estimating that the first two CAMMP modules, those dealing with cooperative
agreement applications and performance reporting, will be on-line by the end of fiscal year 1998.
However, without knowledgeable OCRM and Strategic Environmental Assessments Division staff
assigned to the project on a full-time basis, we believe the CAMMP project will continue to move
along at a slow pace. There is a pressing need for a system such as CAMMP. In our review, we
found that OCRM, GMD, and the coastal states can immediately benefit from an automation of
the award application and performance reporting process. In addition, coastal management
officials can make good use of the information that the CAMMP database will maintain, in order
to make more informed decisions about coastal resources. Therefore, it is critical that OCRM
and/or the Office of Ocean Resources Conservation and Assessments immediately dedicate two
full-time staff members, at a minimum, to the project to ensure that CAMMP is implemented in a
timely manner.

We recognize that OCRM and/or the Office of Ocean Resources Conservation and Assessments
are short-staffed, but changing priorities now to reassign the necessary employees to this project
will likely result in additional performance and efficiency gains in later years. Also, we suggest
that current employees be assigned to the project since the CAMMP system requires the use of
persons familiar with the workings of the CZM program and coastal management issues. If this
expertise can be found through a contracting arrangement or if contractors are needed to input
data, we encourage OCRM and/or the Office of Ocean Resources Conservation and Assessments
to also evaluate these options. Finally, we did not review CAMMP’s system design, functionality,
or ability to accommodate future growth in the database holdings because it was outside the
scope of our review. However, it is important that OCRM and/or the Office of Ocean Resources
Conservation and Assessments make this assessment of the CAMMP system to ensure the system
will function, as intended, for the coastal management community.



NOAA’s response to our draft report stated that it agreed with both of our recommendations
dealing with CAMMP. Specifically NOAA said that it will create an expanded development team
in fiscal year 1998, which will include 1.5 full-time equivalent (FTE) staff persons from OCRM,
1.5 FTE from the Office of Ocean Resources Conservation and Assessments, and 1 FTE in the
form of a contractor hired primarily to do programming. In addition, it will conduct beta testing
workshops with state partners and perform a project validation to ensure CAMMP’s system
design will meet the needs of the coastal management community. While NOAA’s proposed

                                                52
U.S. Department of Commerce                                                          Report IPE-9044
Office of Inspector General                                                           December 1997

actions generally meet the intent of our recommendations, we are concerned that none of the staff
proposed by OCRM and the Office of Ocean Resources Conservation and Assessments for the
development team will be dedicated full-time to the CAMMP project. We recognize that both
offices have competing priorities, but without the full-time attention of at least two staff persons,
CAMMP is at continued risk for delays. Therefore, we request that NOAA reconsider its
proposed action to include the assignment of at least two full-time staff to the CAMMP project.




                                                 53
U.S. Department of Commerce                                                         Report IPE-9044
Office of Inspector General                                                          December 1997

                                   RECOMMENDATIONS

We recommend that the Under Secretary for Oceans and Atmosphere direct appropriate officials
to take the following actions:

1.     Devise a strategy that promotes improved coordination and integration, whenever
       possible, of all coastal activities within NOAA. This strategy should address
       organizational limitations that hamper OCRM from effectively fulfilling its responsibilities
       under the Coastal Zone Management Act.

2.     Establish a Federal Interagency Coastal Coordinating Council to serve as a forum for
       national policy on coastal issues, enhance interagency cooperation, and promote increased
       integrated ecosystem management of the Nation’s coastal waters. The Director of OCRM
       should be appointed to this Council. Ensure that sufficient resources, both staff and
       funding, are dedicated to this project.

3.     Appoint the Director of OCRM to the Management Committee of the Coastal Services
       Center.

4.     Review the partnership between OCRM and the Coastal Services Center to clarify the
       areas of responsibility of each office; take appropriate action to ensure optimum
       cooperation, coordination, and communication between the two offices; and assess
       progress toward that end within six months after implementing these actions.

5.     Develop a pilot project to test the feasibility of multi-year cooperative agreements for the
       CZM program.

6.     Revise the language of CZM cooperative agreements to address current accounting and
       audit issues related to the allocation of oversight costs. This should involve adding the
       following wording to the terms and conditions of all CZM cooperative agreements:
       “Funds provided under this cooperative agreement for program administration and
       monitoring are to cover (1) the oversight of all tasks and projects approved under this
       cooperative agreement, and (2) the oversight required for any incomplete projects or tasks
       from previous cooperative agreements that were not caused by, or were otherwise outside
       the control of, the recipient, and that are clearly identified and have been approved for
       continuation under this cooperative agreement.” In addition, the problem of making this
       policy retroactive for cooperative agreements that are currently open should be addressed.

7.     Improve the approval time for no-cost extensions to cooperative agreements and complete
       the development of a tracking system for incoming no-cost extension requests to expedite
       the timely approval of these applications.

8.     Ensure that OCRM and GMD coordinate their guidance to CZM and NERRS financial
       assistance recipients, where appropriate, so that all direction provided to the awardees is
       consistent and agreed to by both offices.


                                                54
U.S. Department of Commerce                                                         Report IPE-9044
Office of Inspector General                                                          December 1997

9.     Work with the EPA Administrator to identify other federal sources of funding or
       assistance to help states in implementing their section 6217 coastal nonpoint source
       pollution programs. This includes working with EPA to create incentives that encourage
       the state water quality agencies to work with the state CZM agencies in allocating Clean
       Water Act (section 319) grant funding to the section 6217 program.

10.    Closely monitor the progress of the current section 6217 workgroups to determine
       whether the problems inherent in the statute can adequately be addressed through policy
       and administrative changes. If such changes cannot address the problems, work with the
       EPA Administrator to draft legislation to change the section 6217 statute and submit any
       proposed legislation to the Congress.

11.    Develop a strategy to measure the effectiveness of the CZM program. The strategy
       should take into account the findings of the University of Washington team whose study
       should be brought to a businesslike conclusion. The strategy should also include requiring
       the states to complete a baseline inventory of the relevant coastal resources. It should also
       identify which entities (NOAA offices, federal agencies, or the coastal states) should be
       collecting what kinds of data, the frequency of the data collection, and controls to ensure
       uniform data collection and quality control.

12.    Determine how the goals and objectives of the National Estuarine Research
       Reserve System can best be attained in an era of declining funding. Options to be
       considered should include refining and improving suitability criteria for entry into
       the program; reducing the number of Reserves supported with federal funding by
       setting a cap on the number of Reserves; having current and future sites compete
       for the funding; and having current and future sites meet specific performance
       criteria set by NOAA.

13.    Send a memorandum to all appropriate NOAA offices and grantees, that reinforces
       NOAA policy to strongly encourage research to be performed within the National
       Estuarine Research Reserve System and/or the National Marine Sanctuaries, and ensure
       that all appropriate requests for research applications or proposals include a clause stating
       this policy. Within 60 days of the date of the memorandum, determine whether the policy
       is being fully implemented and, if necessary, take the necessary corrective action.

14.    Immediately direct each Reserve to prepare a comprehensive site profile; provide
       guidance and technical assistance to the NERRS sites; and set a realistic time table
       for the completion of the site profiles. If a Reserve does not complete its profile in
       a timely manner, NOAA should consider withholding future funding.

15.    Develop guidance to promote the application of NERRS research findings and
       knowledge to stewardship activities, the development of research results in a
       format that could prove most useful to coastal managers, and the routine delivery
       of applicable research results to coastal managers.



                                                55
U.S. Department of Commerce                                                        Report IPE-9044
Office of Inspector General                                                         December 1997

16.    Change the designation policy for new NERRS sites so that a site may not be
       approved for entrance into the Reserve System unless it has the core staff in place,
       including a Site Manager, a Research Coordinator, and an Education Coordinator.
       For Reserves already in the program, having all three staff positions filled should
       be added as a requirement for cooperative agreement renewal.

17.    Immediately dedicate two full-time staff members, at a minimum, to the CAMMP project
       to ensure that CAMMP is implemented in a timely manner. If this expertise can be found
       through a contracting arrangement or if a contractor can be used for data entry, NOAA
       should also evaluate these options.

18.    Assess the design and functionality of the CAMMP system to ensure that it will work, as
       advertised, for the coastal management community.




                                                56
U.S. Department of Commerce                               Report IPE-9044
Office of Inspector General                                December 1997



                              APPENDIX--AGENCY COMMENTS




                                         57
U.S. Department of Commerce        Report IPE-9044
Office of Inspector General         December 1997




                              58
U.S. Department of Commerce        Report IPE-9044
Office of Inspector General         December 1997




                              59
U.S. Department of Commerce        Report IPE-9044
Office of Inspector General         December 1997




                              60
U.S. Department of Commerce        Report IPE-9044
Office of Inspector General         December 1997




                              61
U.S. Department of Commerce        Report IPE-9044
Office of Inspector General         December 1997




                              62
U.S. Department of Commerce        Report IPE-9044
Office of Inspector General         December 1997




                              63
U.S. Department of Commerce        Report IPE-9044
Office of Inspector General         December 1997




                              64
U.S. Department of Commerce        Report IPE-9044
Office of Inspector General         December 1997




                              65
U.S. Department of Commerce        Report IPE-9044
Office of Inspector General         December 1997




                              66
U.S. Department of Commerce        Report IPE-9044
Office of Inspector General         December 1997




                              67
U.S. Department of Commerce        Report IPE-9044
Office of Inspector General         December 1997




                              68
U.S. Department of Commerce        Report IPE-9044
Office of Inspector General         December 1997




                              69
U.S. Department of Commerce        Report IPE-9044
Office of Inspector General         December 1997




                              70
U.S. Department of Commerce        Report IPE-9044
Office of Inspector General         December 1997




                              71
U.S. Department of Commerce        Report IPE-9044
Office of Inspector General         December 1997




                              72
U.S. Department of Commerce        Report IPE-9044
Office of Inspector General         December 1997




                              73
U.S. Department of Commerce        Report IPE-9044
Office of Inspector General         December 1997




                              74
U.S. Department of Commerce        Report IPE-9044
Office of Inspector General         December 1997




                              75
U.S. Department of Commerce        Report IPE-9044
Office of Inspector General         December 1997




                              76
U.S. Department of Commerce        Report IPE-9044
Office of Inspector General         December 1997




                              77
U.S. Department of Commerce        Report IPE-9044
Office of Inspector General         December 1997




                              78
